<html>
<title> - BUYING MORE LAND WHEN WE CAN'T MAINTAIN WHAT WE ALREADY OWN: THE NATIONAL WILDLIFE REFUGE SYSTEM'S OPERATIONS & MAINTENANCE BACKLOG STORY!</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                       BUYING MORE LAND WHEN WE
                        CAN'T MAINTAIN WHAT WE
                       ALREADY OWN: THE NATIONAL
                       WILDLIFE REFUGE SYSTEM'S
                       OPERATIONS & MAINTENANCE
                            BACKLOG STORY!

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         Thursday, May 26, 2011

                               __________

                           Serial No. 112-35

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
66-651                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3b2c331c3f292f283439302c723f333172">[email&#160;protected]</a>  
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 26, 2011...........................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     3
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Commonwealth of the Northern Mariana Islands...............     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Clark, Jamie Rappaport, Executive Vice President, Defenders 
      of Wildlife................................................    12
        Prepared statement of....................................    14
    Forster, Dan, Director, Wildlife Resources Division, Georgia 
      Department of Natural Resources............................    16
        Prepared statement of....................................    18
    Horn, William P., Counsel, U.S. Sportsmen's Alliance.........    26
        Prepared statement of....................................    28
    Kurth, James W., Acting Assistant Director, National Wildlife 
      Refuge System, U.S. Fish and Wildlife Service, U.S. 
      Department of the Interior.................................     5
        Prepared statement of....................................     7
    Recce, Susan, Director, Division of Conservation, Wildlife 
      and Natural Resources, National Rifle Association..........    22
        Prepared statement of....................................    24



OVERSIGHT HEARING ON ``BUYING MORE LAND WHEN WE CAN'T MAINTAIN WHAT WE 
   ALREADY OWN: THE NATIONAL WILDLIFE REFUGE SYSTEM'S OPERATIONS AND 
                      MAINTENANCE BACKLOG STORY!''

                              ----------                              


                         Thursday, May 26, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:46 p.m. in 
Room 1334, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Duncan, Southerland, 
Flores, Runyan, and Sablan.
    Dr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum. First of all, I want 
to thank our witnesses and the audience today for your patience 
while we were on the Floor working on a very important bill. 
So, thank you.
    Today, the Subcommittee on Fisheries, Wildlife, Oceans and 
Insular Affairs will conduct an oversight hearing on the 
operations and maintenance backlog within the National Wildlife 
Refuge System.
    This is the fifth hearing this Committee has conducted on 
this subject, but the first since March 23, 2001. Under 
Committee Rule 4[f], opening statements are limited to the 
Chairman and Ranking Member of the Subcommittee so that we can 
hear from our witnesses more quickly.
    However, I ask for unanimous consent to include any other 
Members' opening statements in the hearing record if submitted 
to the Clerk by close of business today. Hearing no objection, 
so ordered.

 STATEMENT OF HON. JOHN FLEMING, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Dr. Fleming. While much has changed over the past 16 years, 
I found it fascinating to review previous testimony. For 
instance, at the hearing on July 25th, 1996, the Fish and 
Wildlife Service's Chief of Refuges, Dr. Robert Streeter, 
testified that, ``We feel that it is time to break that 
historic pattern of benign neglect in our National Wildlife 
Refuge System. If we were a modern business, we would be well 
down the road to bankruptcy.''
    Five years later, a new Refuge Chief, who has now been 
nominated as the sixteenth Director of the Fish and Wildlife 
Service testified that ``As we look to the future, our greatest 
responsibility and priority is taking care of what we have, the 
maintenance of the facilities and equipment that we need to 
accomplish our mission.''
    More recently, the 2010 report issued by the Cooperative 
Alliance for Refuge Enhancement stated that ``Washed out 
trails, leaking roofs, closed roads, and broken equipment, 
plague the refuge system.''
    How did we get to this point? In 1996, when Dr. Streeter 
was talking about bankruptcy, the operations and maintenance 
backlog was $440 million. When Mr. Ashe was addressing the 
Subcommittee, the backlog had grown to $1.9 billion.
    Today, the cumulative backlog is $3.3 billion, which 
includes more than 1200 invasive species projects, national 
fish hatchery projects, 3,342 mission-critical projects, 5,349 
operations projects, 5,994 refuge road projects, and more than 
12,000 refuge facilities in need of immediate repair.
    As a direct result of this backlog, there are miles of 
impassable or unsafe roads, millions of refuge acres infected 
with invasive species, a severe shortage of law enforcement 
personnel and 326 refuges that are either unstaffed or closed 
to the public.
    When the Congress approved the National Wildlife Refuge 
Improvement Act of 1997, a fundamental goal of that historic 
law was to establish the finest refuge system in the world. It 
is difficult for anyone to argue that we are close to achieving 
that goal.
    What we need is a new paradigm or vision for addressing 
this problem. This is the purpose of today's hearing, to obtain 
the views of many of the same organizations who have testified 
in the past and to have what may be becoming an overused term, 
an adult conversation, on how to address this problem.
    While there are no bad ideas, I would caution our witnesses 
and the listening public that we are not going to significantly 
reduce this backlog by depending exclusively on discretionary 
funds.
    It is highly unlikely that Congress is going to appropriate 
a huge new infusion of taxpayer money. Instead, I would hope 
that our witnesses would look at certain suggestions, including 
whether a portion of money allocated to the Land and Water 
Conservation Fund, should be set aside for refuge operations 
and maintenance, and whether the Service should limit their 
acquisition dollars to conservation easements, and not fee 
title acquisition, if certain unstaffed refuges can be managed 
or transferred to States, Native American tribes, or other 
municipalities under Memoranda of Understanding, and whether 
the 44 million Americans who visit a refuge each year would be 
willing to contribute more to its upkeep through the Recreation 
Fee Program.
    I look forward to hearing the testimony of our 
distinguished witnesses, and I now recognize our Ranking Member 
from the Commonwealth of the Northern Mariana Islands, 
Congressman Sablan, for any statement that he would like to 
make.
    [The prepared statement of Dr. Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Good afternoon, today the Subcommittee will conduct an oversight 
hearing on the operations and maintenance backlog within the National 
Wildlife Refuge System. This is the fifth hearing this Subcommittee has 
conducted on this subject but the first since March 23, 2001.
    While much has changed over the past ten years, I found it 
fascinating to review previous testimony. For instance, at the hearing 
on July 25, 1996, the Fish and Wildlife Service's Chief of Refuges, Dr. 
Robert Streeter testified that: ``We feel it is time to break that 
historic pattern of benign neglect in our National Wildlife Refuge 
System. If we were a modern business, we would be well down the road to 
bankruptcy''.
    Five years later, a new Refuge Chief, who has now been nominated as 
the 16th Director of the Fish and Wildlife Service testified that: ``As 
we look to the future, our greatest responsibility and priority is 
taking care of what we have, the maintenance of the facilities and 
equipment that we need to accomplish our mission''.
    More recently, the 2010 Report issued by the Cooperative Alliance 
for Refuge Enhancement stated that: ``Washed-out trails, leaking roofs, 
closed roads, and broken equipment plague the refuge system''.
    How do we get to this point? In 1996, when Dr. Streeter was talking 
about bankruptcy, the operations and maintenance backlog was $440 
million. When Mr. Ashe was addressing the Subcommittee the backlog had 
grown to $1.9 billion. Today, the cumulative backlog is $3.3 billion 
which includes more than 1,200 invasive species projects; 1,400 
national fish hatchery projects; 3,342 ``mission critical'' projects; 
5,994 refuge road projects and more than 12,000 refuge facilities which 
are in need of immediate repair.
    As a direct result of this backlog, there are miles of impassable 
or unsafe roads, millions of refuge acres infested with invasive 
species, a severe shortage of law enforcement personnel and 326 refuges 
that are either unstaffed or closed to the public. When the Congress 
approved the National Wildlife Refuge Improvement Act of 1997, a 
fundamental goal of that historic law was to establish the finest 
refuge system in the world. It is difficult for anyone to argue that we 
are close to achieving that goal.
    What we need is a new paradigm or vision for addressing this 
problem. This is the purpose of today's hearing to obtain the views of 
many of the same organizations who have testified in the past and to 
have what may be becoming an over used term an ``adult conversation'' 
on how to address this problem.
    While there are no bad ideas, I would caution our witnessed and the 
listening public that we are not going to significantly reduce this 
backlog by depending exclusively on discretionary funds. It is highly 
unlikely that Congress is going to appropriate a huge new infusion of 
taxpayer money.
    Instead, I would hope our witnesses would look at certain 
suggestions including whether a portion of money allocated to the Land 
and Water Conservation Fund should be set-aside for refuge operations 
and maintenance, whether the Service should limit their acquisition 
dollars to conservation easements and not fee title acquisition, if 
certain unstaffed refuges can be managed or transfer to States, native 
American tribes or other municipalities under Memorandum of 
Understandings and whether the 44 million Americans who visit a refuge 
each year would be willing to contribute more to its upkeep through the 
Recreation Fee Program.
    I look forward to hearing the testimony of our distinguished 
witnesses. I am now pleased to recognize our Ranking Democratic Member 
from the Commonwealth of the Northern Mariana Islands, Congressman 
Sablan for any statement he would like to make.
                                 ______
                                 

STATEMENT OF HON. GREGORIO KILILI CAMACHO SABLAN, A DELEGATE IN 
 CONGRESS FROM THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you very much, Mr. Chairman, and good 
afternoon everyone. The National Wildlife Refuge System is the 
world's finest network of protected lands and waters designed 
to conserve our fish and wildlife resources.
    Refuges are located in every State and in nearly every 
territory, including the Commonwealth of the Northern Mariana 
Islands. Millions of people visit refuge camps each year to 
hunt, fish, and observe wildlife, and the refuge system 
generates $1.7 billion in sales for local communities, and 
creates nearly 27,000 jobs annually.
    The refuge system is under increasing strain from 
operations and maintenance backlogs of $3.4 billion. In my own 
district, the operating needs require to hire staff to manage 
and to develop, and to implement visitor services, education, 
and volunteer programs at the Mariana Trench, and the Mariana's 
Arc of Fire National Wildlife Refuge, are expected to cost over 
$380,000.
    While the specific refuges are relatively new, the overall 
operations and maintenance backlog did not arise overnight. 
This backlog has been a growing problem from decades of chronic 
under-funding over many Administrations and Congresses, both 
Republican and Democrat.
    We must find ways to provide additional resources and 
support to the refuge system to address this problem, and I 
look forward to hearing from our witnesses today, who have been 
invited to share their creative ideas and solutions on how to 
address the refuge system's operation and maintenance backlog.
    It is imperative that we also make important legacy 
investments in our refuges now to ensure that the fish, 
wildlife, and habitats are protected for the enjoyment and 
benefit of future generations.
    The Land and Water Conservation Fund, which is generated by 
oil and gas drilling revenues, are not taxpayer dollars, and 
provides the Fish and Wildlife Service with resources that it 
needs to acquire lands and conservation easements from willing 
sellers and landowners, which can result in operational 
efficiencies, and conductivity within the refuge system.
    Whether for operations, maintenance, conservation 
easements, or land annexations, every $1 invested in our refuge 
system by the Federal Government returns about $4 to local 
communities.
    Supporting the refuge system is a worthy investment to 
conserve fish and wildlife, and to protect a critical part of 
America's natural heritage, and to support all of the 
communities which are present. Again, I thank the witnesses for 
testifying today, and I look forward to learning more about 
this important issue. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sablan follows:]

  Statement of The Honorable Gregorio Kilili Camacho Sablan, Ranking 
Member, Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Thank you, Mr. Chairman. The National Wildlife Refuge System is the 
world's finest network of protected lands and waters designed to 
conserve our fish and wildlife resources. Refuges are located in every 
state and in nearly every territory, including in the Commonwealth of 
the Northern Mariana Islands. Millions of people visit refuges each 
year to hunt, fish, and observe wildlife; and the Refuge System 
generates $1.7 billion in sales for local communities and creates 
nearly 27,000 jobs annually.
    The Refuge System is under increasing strain from tight budgets and 
an operations and maintenance backlogs of $3.4 billion. In my own 
district, the operating needs required to hire staff to manage, and to 
develop and implement visitor services, education, and volunteer 
programs at the Mariana Trench and the Mariana Arc of Fire National 
Wildlife Refuges are expected to cost over $380,000.
    While these specific refuges are relatively new, the overall 
operations and maintenance backlog did not arise overnight. This 
backlog has been a growing problem from decades of chronic underfunding 
over many Administrations and Congresses, both Republican and Democrat. 
We must find ways to provide additional resources and support to the 
Refuge System to address this problem and I look forward to hearing 
from our witnesses today, who have been invited to share their creative 
ideas and solutions on how to address the Refuge System's operations 
and maintenance backlog.
    It is imperative that we also make important legacy investments in 
our refuges now to ensure that these fish, wildlife, and habitats are 
protected for the enjoyment and benefit of future generations. The Land 
and Water Conservation Fund, which is generated by offshore oil and gas 
drilling revenues and not taxpayers' dollars, provides the Fish and 
Wildlife Service with resources it needs to acquire lands and 
conservation easements from willing sellers and land owners, which can 
result in operational efficiencies and connectivity within the Refuge 
System.
    Whether for operations, maintenance, conservation easements, or 
land acquisition, every one dollar invested in our Refuge System by the 
federal government returns about four dollars to local communities. 
Supporting the Refuge System is a worthy investment to conserve fish 
and wildlife, to protect a critical part of America's natural heritage, 
and to support all of the communities, which we represent.
    Again, I thank the witnesses for testifying today and look forward 
to learning more about this important issue.
                                 ______
                                 
    Dr. Fleming. I thank the gentleman, the Ranking Member. We 
will now hear from our witnesses. Like all witnesses, your 
written testimony will appear in full in the hearing record. So 
I ask that you keep your oral statements to five minutes as 
outlined in our invitation letter to you, and under Committee 
Rule 4[a].
    Our microphones are not automatic, and so please press the 
button when you are ready to begin, and likewise, when you are 
done, press it as well, unless you want the world to hear what 
is on your mind.
    I also want to explain how timing lights work. When you 
begin to speak, our Clerk will start the timer, and a green 
light will appear. After four minutes the yellow light will 
appear, and at that time, you should begin to conclude your 
statement.
    At five minutes the red light will come on. You may 
complete your sentence, but at that time, I must ask that you 
stop. I would now like to welcome Mr. James W. Kurth, Acting 
Assistant Director of the National Wildlife Refuge System, for 
the Fish and Wildlife Service; Mrs. Jamie Rappaport Clark, 
former Director of the Fish and Wildlife Service, and now 
Executive Vice President of Defenders of Wildlife; Mr. Dan 
Forster, Director, Wildlife Resources Division for the Georgia 
Department of Natural Resources; Mrs. Susan Recce, Director of 
the Division of Conservation for the Institute for Legislative 
Action, at the National Rifle Association; and Mr. William P. 
Horn, former Assistant Secretary of the Interior, and former 
Chairman of the National Wildlife Refuge System Centennial 
Commission, and Counsel for the United States Sportsmen's 
Alliance, who he is representing today. Mr. Kurth of the Fish 
and Wildlife Service is now recognized. You may begin, sir.

    STATEMENT OF JAMES W. KURTH, ACTING ASSISTANT DIRECTOR, 
    NATIONAL WILDLIFE REFUGE SYSTEM, UNITED STATES FISH AND 
                        WILDLIFE SERVICE

    Mr. Kurth. Good afternoon, Mr. Chairman, and Members of the 
Subcommittee. I am Jim Kurth. I am the Acting Assistant 
Director for the National Wildlife Refuge System, and I 
appreciate the opportunity to testify on the important 
conservation work of the National Wildlife Refuge System.
    The National Wildlife Refuges conserve some of the most 
outstanding wildlife habitat in the world, and a stunning array 
of fish and wildlife. Most refuges, however, are fragments of 
what were once much larger landscapes.
    Natural ecological functions, such as wildfires, and 
periodic flooding, that maintain high quality wildlife 
habitats, are often disrupted now. This requires us to actively 
manage refuges.
    The management, or operations of National Wildlife Refuges, 
include many practices, including such things as prescribed 
fire, manipulation of water levels and managed impoundments, 
controlling invasive species, grazing, farming, and much more.
    Our refuge operational accounts also fund refuge law 
enforcement, visitor services, and volunteer management, and 
comprehensive conservation planning. Our operational needs 
total $676 million.
    We have reduced that from a previous estimate of $1.2 
billion by using a model that includes only our highest 
priority staffing and critical project needs. If we don't fund 
some of this work, like controlling invasive species, the 
problem gets worse and future costs are higher.
    Other operational needs are unfunded, and missed 
opportunities to deliver more effective conservation, and 
better serve the public. We maximize the effectiveness of our 
funding through close partnerships with State Fish and Wildlife 
Agencies, and with an army of 42,000 volunteers.
    We constantly are looking for partnership opportunities to 
leverage these resources. Managing refuges requires 
infrastructure. The refuge system has infrastructure worth $24 
billion, and much of this infrastructure is directly related to 
providing high quality habitat.
    Water control structures, levees, and water delivery 
systems, represent 34 percent of our constructed assets, roads 
that are important for access and for fire management, account 
for nearly 50 percent of those assets.
    We have a $2.7 billion backlog of deferred maintenance on 
these facilities. The cost estimate for our deferred 
maintenance backlog has grown substantially over the last 
decade. This is in large part because we have undertaken more 
systematic and professional condition assessments, and have 
used industry standard cost estimating tools.
    In addition, damages from natural disasters like hurricanes 
and the recent North Dakota floods, have contributed $241 
million to the backlog just since 2005. The ongoing flooding 
along the Mississippi River will have a significant impact as 
well, as more than 570,000 acres on 27 refuges are currently 
under water.
    While the cost estimate of the maintenance backlog has 
grown, we believe that the condition of our facilities has 
improved over the past decade because of the investments that 
we have made, but we still have a lot of work to do.
    Some question how much land acquisition the Service should 
be doing when we already have a large backlog of work on the 
lands that we already own. Purchasing land in existing refuge 
often lowers the cost of operations. Contiguous blocks of 
refuge lands makes it easier to post boundaries, to manage 
fires, to provide access and recreational opportunities than on 
refuges where the ownership is more scattered.
    Finding the right balance on how much more land we purchase 
requires our most thoughtful consideration and discernment. But 
conserving high quality habitat for fish and wildlife is what 
we do in the refuge system. If we hadn't protected special 
places, like the Arkansas National Wildlife Refuge along the 
Texas coast, the whooping crane may not have survived.
    Without the National Key Deer Refuge, we would likely have 
no Key Deer. Many bird species in grasslands, and arid lands, 
and forests, are declining across the country according to our 
most recent State of the Birds Report.
    Wetland birds, however, particularly waterfowl, are doing 
quite well, and the primary reason why waterfowl are doing well 
is our decades of work protecting millions of acres of 
waterfowl habitat throughout the flyways as National Wildlife 
Refuges.
    Mr. Chairman, we look forward to continuing to work with 
the Committee as we plan together the thoughtful stewardship of 
the National Wildlife Refuge System. I thank you very much for 
the opportunity to speak. Thank you.
    [The prepared statement of Mr. Kurth follows:]

 Statement of Jim Kurth, Acting Assistant Director, National Wildlife 
 Refuge System, U.S. Fish and Wildlife Service, U.S. Department of the 
                                Interior

    Good morning Chairman Fleming and members of the Subcommittee. I am 
Jim Kurth, acting Chief of the National Wildlife Refuge System within 
the U.S. Fish and Wildlife Service (Service). I appreciate the 
opportunity to testify today on the important work funded by the 
National Wildlife Refuge System's operations and maintenance accounts, 
and on the tools we use to protect America's wildlife and natural 
areas.
    The mission of the National Wildlife Refuge System is to administer 
a national network of lands and waters for the conservation, management 
and, where appropriate, restoration of the fish, wildlife and plant 
resources and their habitats within the United States for the benefit 
of present and future generations of Americans. The Refuge System is 
the world's premier network of public lands devoted to the conservation 
of wildlife and habitat, and offers about 44 million annual visitors 
the opportunity to fish, hunt, observe and photograph wildlife, and 
learn about nature through environmental education and interpretation. 
And with its widespread presence and history of working with partners, 
the Refuge System also plays a key role in supporting innovative 
community-level efforts to conserve outdoor spaces and to reconnect 
people to the outdoors through the Administration's America's Great 
Outdoors initiative.
    The Refuge System includes over 150 million acres of land and 
water; natural gems that Americans have protected for themselves and 
their children. The Refuge System is a diverse land, wetland, and ocean 
conservation system spanning more than half the planet--from Guam, 
American Samoa, and other remote Pacific islands, north to the high 
arctic in northern Alaska, east to the rugged coastline of Maine and 
south to the tropical U.S. Virgin Islands. National wildlife refuges 
are found in every U.S. state. In total, the Refuge System now contains 
553 refuges and 38 wetland management districts.
    The presence of a national wildlife refuge in a community offers 
significant economic benefit in the form of jobs and visitor spending 
in local stores, hotels, and service stations. According to a Service 
analysis entitled Banking on Nature 2006: The Economic Benefits to 
Local Communities of National Wildlife Refuge Visitation, refuge 
visitors generated $1.7 billion of annual sales to local economies, of 
which 87% was spent by travelers from outside the local area. The 
ripple effect from these visitors created over 27,000 jobs and more 
than $543 million in employment income.
    But the Refuge System is just a part of a growing and massive 
outdoor recreation business sector. According to the National Survey of 
Fishing, Hunting, and Wildlife-Associated Recreation, 33.9 million 
Americans spent a combined total of $76.7 billion on hunting and 
fishing in 2006. Even more popular, wildlife watching was enjoyed by 
71.1 million Americans, who spent $45.7 billion. Moreover, research has 
shown that permanently protected land in the vicinity of developed 
areas significantly increases property values. A substantial number of 
national wildlife refuges are located in and around cities, and in 
places where development is rapidly occurring. It is clear that 
Americans place high value on wild lands and healthy populations of 
fish and wildlife. In addition to economic benefits, refuges provide 
many environmental services for communities. For example, refuges can 
filter rainwater before it enters municipal supplies, reduce flooding 
by slowing excess surface runoff, and attenuate storm surges before 
they reach coastal homes and businesses. Finally, refuges place 
relatively few demands on local infrastructure when compared to more 
intensive development.
    Because national wildlife refuges offer substantial economic 
benefit and unparalleled wildlife experiences, it's no surprise they 
enjoy broad public support. Advocacy groups as diverse as the National 
Rifle Association, The Wilderness Society, Safari Club International, 
and National Audubon Society, among many others, all agree that the 
Refuge System is a unique American treasure worthy of continued 
investment. But the Refuge System is facing tremendous challenges--from 
the threats placed upon wildlife by habitat destruction, non-native 
species, and a rapidly changing climate, to a dwindling interest in the 
outdoors by many young Americans. The Service is already responding to 
these challenges, while also working to cultivate the support of both 
traditional and new constituencies, particularly diverse, urban youth. 
To amplify our efforts and hone our approach, the Refuge System is now 
spearheading a collaborative effort that aims to craft a progressive 
vision for wildlife conservation in America. We call it Conserving the 
Future: Wildlife Refuges and the Next Generation.
    Conserving the Future will help ensure that the Refuge System is on 
track to achieve its mission, while being prepared to meet the 
challenges of our changing world. The Service has been encouraging 
everyone--wildlife watchers, outdoor educators, hunters, anglers, 
youth, Service employees, refuge Friends groups, other conservation 
partners and concerned citizens--to participate in shaping the Refuge 
System's future These efforts will ensure that the resources of the 
Refuge System are used in a prioritized and efficient manner to reach 
the Service's goals as well as outcomes our constituencies are asking 
for--such as, continued hunting and fishing opportunities, wilderness 
experiences, restoration of degraded lands, thriving wildlife 
populations, among many others.
    In order to achieve these outcomes, the Service uses a variety of 
approaches, such as actively managing and restoring wildlife habitats, 
offering technical and financial assistance to private landowners, and 
building public support through volunteer programs. One of the most 
effective approaches is the protection of important wildlife habitats 
via land acquisition or conservation easements. In America, lands with 
some form of legal protection are highly fragmented. Many species, such 
as salmon or Florida panthers, try their best to navigate barriers, 
including hydroelectric dams and 10-lane interstates, but are usually 
unsuccessful and are therefore their populations are vulnerable. When 
the Refuge System acquires new properties, species such as these 
benefit from the renewed connection between protected parcels. These 
acquisitions are good for wildlife, but they're also good for people 
because the Refuge System only acquires lands in easement or fee title 
from willing landowners who are paid market value for their land. For 
these people, putting an easement on their property or selling it to 
the Refuge System guarantees that the land they love will forever 
remain just as they know it; preserved for their children and 
grandchildren.
    In recent years, a new model of conservation has begun to find 
success in certain parts of the rural U.S. That is, a model that finds 
shared objectives between the needs of wildlife and those interested in 
maintaining traditional working lands, such as for livestock grazing 
and haying. Private landowners, conservation groups, states and the 
federal government are all working together to protect America's 
special places. For example, in the Rocky Mountain Front and Blackfoot 
Valley of central Montana, people are working cooperatively to protect 
one of the most special places left in the Rockies--an area that 
preserves ranching lifestyles while maintaining critical corridors for 
grizzly bears and other animals to make their seasonal migrations. 
Similarly, in the Flint Hills of eastern Kansas, people are 
collaborating to protect an area that is home to some of the last 
remaining tallgrass prairie in America. With over 96% of this globally 
rare ecosystem already destroyed, preserving what's left ensures room 
for wildlife to roam while preserving the rich agricultural heritage of 
the region. It's truly a win-win-win when voluntary conservation 
easements designed to protect more than 100 species of grassland birds 
and 500 plants simultaneously preserve land ownership and property 
rights for participating landowners, and keep these properties on local 
tax rolls.
    Overwhelmingly, Americans support conservation initiatives, even in 
the face of economic hardship. Since 1988, Americans have voted to 
raise $56 billion for land conservation through bonds, property or 
sales tax increases, or other financial mechanisms. Ballot initiatives 
have passed in 43 states to date, with an overall passage rate of 
nearly 76%, or 1,740 out of 2,299 initiatives.\1\
---------------------------------------------------------------------------
    \1\ LandVote 2010 by The Trust for Public Land and Land Trust 
Alliance
---------------------------------------------------------------------------
The Refuge System's Operations and Maintenance Accounts
    The Refuge System prioritizes its project spending in alignment 
with its overall strategic goals. Our staff and funding conserve an 
extraordinary amount of species and ecosystems. Currently, the Service 
is tracking about $3.3 billion in operational needs and deferred 
maintenance projects, including about $650 million in operations and 
$2.7 billion in maintenance. It is important to note that the $2.7 
billion in maintenance reflects the total amount of projects required 
to bring all assets up to excellent conditions.
    Managing the Refuge System is not unlike running a large company 
with hundreds of branch offices. It requires simultaneous attention to 
both national and local issues, and a diverse and highly trained 
workforce that must work together for the entire operation to run 
smoothly. Our workforce contains mostly biologists and professional 
wildlife managers, but also contains professional educators, law 
enforcement officers, heavy equipment operators, fire fighters, real 
estate appraisers, IT and cartography professionals, budget 
specialists, and more than a few pilots and boat captains. With fewer 
than 4,000 employees working at more than 380 locations spanning all 
U.S. states and territories, and with only $3.35 for every acre we 
manage, the Refuge System must work hard to ensure its operations are 
efficient.

Operations Account
    The Refuge System spends Operations money on activities that 
contribute to meeting our mission. These are the activities that keep 
land and water in suitable condition for wildlife, and provide safe 
access and recreational opportunities for visitors. For budget 
purposes, the Refuge System organizes its operational activities into 
four areas: Wildlife and Habitat Management, Visitor Services, Law 
Enforcement, and Conservation Planning. A database--the Refuge 
Operating Needs System (RONS)--catalogs outstanding operational 
projects, including the staff and equipment necessary to perform 
routine management activities. From a refuge manager's perspective, 
projects in RONS represent the prospective work and people to get the 
job done. These funding increases are for monitoring, restoring, and 
protecting wildlife and their habitats, supporting wildlife-dependent 
recreation, ensuring a safe environment for people and wildlife, and 
creating strategic plans with extensive public involvement that ensure 
a collaborative approach to conservation.
    The continual improvements being made to RONS have allowed the 
Refuge System to be strategic in its allocations by identifying and 
prioritizing operational funding increases. While RONS previously 
indicated approximately $1 billion in project funding, careful analysis 
in the past two years has reduced this figure, primarily by removing 
lower priority projects. Making these choices has allowed the Refuge 
System to focus on only the highest priority needs. Currently, RONS 
contains 5,349 projects that describe a combined total of approximately 
$650 million. A portion of these ``projects'' actually represent 
additional staff. Such staffing calculations were developed from two 
staffing models, both of which used measurable and objective workload 
drivers to predict number and location of staff. One model, the Law 
Enforcement Deployment Model, was developed by the International 
Association of Chiefs of Police (IACP) and determined the number of law 
enforcement officers to ensure visitor, staff, and resource protection. 
The IACP called for 845 officers. Currently the Refuge System has 
approximately 213 officers. The second model--Staffing Model for Field 
Stations in the Refuge System, June 2008--calculated the necessary non-
law enforcement positions at refuges across the country.
    The majority of Operations funding is spent on wildlife and habitat 
management. These activities are at the core of what the Refuge System 
does. For example, at Blackwater NWR in Maryland and at many other 
refuges, freshwater impoundments are managed with dikes, pumps, canals, 
water control structures, and even prescribed fire to obtain ideal 
conditions for waterfowl and shorebirds.
    Another example of important management funded with Operations 
dollars is found in the Lower Rio Grande Valley in southern Texas, 
where refuge lands are restored with operations funds. Here, in one of 
the most diverse plant and animal communities in the entire U.S., more 
than 95% of the native vegetation has been cleared for agriculture and 
other development. Still, more than 500 bird and 300 butterfly species, 
including some of the rarest in America, have been documented in this 
four-county area. Owing to the biological richness preserved by the 
three national wildlife refuges here, southern Texas has become one of 
the premier eco-tourism destinations in the country. However, Lower Rio 
Grande Valley NWR alone has more than 110 disconnected parcels--many of 
which were purchased as farmland and restored back to native 
vegetation--scattered along the final 200 miles of the river. This 
arrangement may be okay for winged critters like birds and bats, but it 
presents huge barriers to animals that walk, slither, or hop. 
Strategically acquiring lands from willing sellers and restoring those 
lands with operations dollars connects habitats, improves water 
quality, and helps nearby Texas cities and towns thrive with the 
600,000 annual visitors attracted to this natural spectacle. These 
visitors generate approximately $150 million for the local economy, 
which is substantial given the median household income in the area is 
only $27,000.
    Operations funding also allows for proactive work that actually 
saves money in the long run. For example, non-native invasive species 
(e.g., nutria, kudzu, cheat grass, and verbicina) have a foothold 
nearly everywhere in America. These invaders cost us dearly, in terms 
of money but also reduced forage for livestock, increased fuel for 
catastrophic wildfires, and degraded wildlife habitat. The most 
effective approach when battling invasive species is to detect and 
eradicate them early, before they gain a strong foothold and spread 
quickly. Operations money funds this critical work, which not only 
safeguards refuge lands but also surrounding private property.

Maintenance Account
    In addition to operational work, the Refuge System also allocates 
funding to important maintenance projects. The Refuge System has an 
extensive array of constructed facility assets that are vital to 
achieving the System's mission. A database known as the Service Asset 
and Maintenance Management System (SAMMS) catalogs projects for more 
than 45,000 assets, which are collectively valued at about $24 billion. 
About 35% of the value of this investment is in water management 
structures which aid in managing wetland impoundments for an array of 
wildlife and recreational opportunities such as hunting, fishing, and 
birding. Nearly 50% is invested in roads, trails, bridges, and parking 
areas, allowing our employees to access areas for management and 
research, and facilitating access for visitors. About 11% is invested 
in buildings that provide office space, labs, visitor space, 
residences, and storage for vehicles, equipment, and various supplies. 
The remaining 6% of our infrastructure is comprised of items such as 
small-scale visitor facilities, radio and communication systems, docks/
piers for equipment transport, and various other items.
    About a decade ago, the Refuge System began a more structured 
approach to managing its constructed assets, and in general the 
condition of our facilities is now much improved. Our data show an 
improving trend in the facility condition index for our buildings, 
water management assets, and transportation assets. We initiated 
comprehensive condition assessments that are completed every five years 
by specialists trained in estimating repair costs. Five-year budget 
plans were developed to prioritize funding over multiple years using a 
criteria-based ranking approach. Collectively, these efforts have 
allowed us to gain a much more detailed and accurate understanding of 
the condition of our assets and the costs to adequately address 
maintenance. In the last 10 years or so, the list of deferred 
maintenance projects appeared to grow considerably, from about $600 
million to about $2.7 billion. However, much of this growth is a result 
of more complete and accurate information rather than changes in asset 
condition. It's also noteworthy that the maintenance backlog has 
remained relatively stable at $2.5 to $2.7 billion for the last four 
years.
    Importantly, however, these more detailed cataloging efforts have 
had the effect of producing a number which reflects the total amount of 
projects required to bring all assets up to excellent conditions rather 
than to keep the condition of the most important components of key 
assets at a sustainable level.
    The American Recovery and Reinvestment Act of 2009 (Recovery Act) 
allowed many important projects to be completed. This funding 
represented an important investment that helped maintain the critical 
buildings, levees, water control structures, and more, that we need to 
meet both the biological and visitor-related goals of the Refuge 
System. The Refuge System received approximately $212 million in 
funding from the Recovery Act: 60% was devoted to existing facilities, 
29% to new facilities, 8% to habitat improvement projects, and 2% to 
youth employment.
    Whether through Recovery Act funding or annual appropriations, the 
Refuge System uses its available funds in strategic ways for the 
highest priority projects. We use a variety of methods to leverage 
available resources and promote the wise use of taxpayer dollars. These 
include pooling resources with our partners and between refuges, 
renting rather than purchasing construction equipment where 
appropriate, organizing maintenance action teams composed of staff who 
can complete projects for less than contractors, employing youth to 
assist with routine maintenance tasks, developing a corps of more than 
42,000 volunteers who contribute nearly 1.5 million hours of work 
annually, and other means to find the most cost effective way to 
complete projects.
    The Refuge System has some atypical assets within its overall 
maintenance program. Our road system is not a well-defined system of 
paved highways but is instead a collection of mostly ``native 
surfaced'' roadways often located in environmentally sensitive areas, 
which are subject to flooding. These roads may have been built, for 
example, as an addition to a levee project and may be under-designed or 
unsuitable for substantial vehicular traffic. Determining how best to 
maintain such roads is challenging both in terms of design and reliable 
and consistent forecasting of long-term maintenance costs. In the last 
decade, funding through the surface transportation authorization bill 
has made a significant improvement to the condition of refuge roads. 
Another asset challenge is management of infrastructure on our many 
island refuges in remote areas of the Pacific Ocean, such as Midway 
Atoll National Wildlife Refuge. Costs to mobilize a construction crew 
at Midway are very expensive (generally over $100,000 per event) and 
Midway alone has identified over $210 million in deferred maintenance 
projects.
    In addition, damages from natural disasters, such as floods, 
drought or hurricanes affect many refuges--especially those in coastal 
or riverine zones. Refuges around the country are frequently in the 
crosshairs of natural disasters, whether hurricanes Katrina and Rita, 
the North Dakota floods of 2009, or the Deepwater Horizon oil spill. 
These events have had a substantial effect on Refuge System 
maintenance.
    Since 2000, seven former military sites have been transferred to 
the Refuge System. With these properties comes the cost of demolition, 
management, and public safety. The current deferred maintenance and 
demolition costs for projects on these seven former military sites is 
$65.5 million.
    In summary, the Refuge System has made significant progress in the 
last decade with regard to refining and improving its maintenance 
program. We have made great strides toward a more thorough 
understanding of costs and needs, and are focusing funds toward the 
highest priority needs.

Acquisition of Fee-Title Land or Conservation Easements Can Help 
        Decrease Operations and Maintenance Costs
    Without question, providing high-quality stewardship of the 
nation's wildlife refuges takes significant resources, and refuge 
managers must make maintenance decisions within a prioritized framework 
to ensure key assets remain at sustainable levels. The Refuge System 
sometimes faces questions about how its operations and maintenance 
backlog relate to its pursuit of acquiring new fee-title land or 
conservation easements.
    The Refuge System, as part of its official charge from Congress, 
has a mandate to ``. . .conserve fish, wildlife, and plants and their 
habitats. . ..'' One of the most effective ways to do this is to 
protect areas that hold the greatest value for wildlife. This 
approach--acquiring rights to land and water--is a clear priority for 
both Congress and the majority of Americans who support preserving open 
space and wildlife, as evidenced by the public comments at the 
Administration's America's Great Outdoors sessions held last summer 
throughout the country. Investment in newly conserved properties 
provides more access for hunters, anglers, and wildlife watchers; 
creates jobs and economic benefit to local communities; increases 
survival of wildlife; and helps private landowners preserve their 
family lands and lifestyle, such as ranching, in perpetuity. Any one of 
these reasons alone is a strong justification for conserving 
irreplaceable lands--in some cases, remnants of the last places on 
Earth where certain habitats exist, such as tallgrass prairie in the 
Flint Hills of Kansas. But an equally compelling reason to purchase 
land or acquire easements is that consolidating fragmented lands often 
reduces operations and maintenance needs, thereby saving taxpayer 
dollars.
    Most new acquisitions or conservation easements acquired by the 
Refuge System simply serve to fill in the gaps. Many are private 
inholdings within or immediately adjacent to an existing refuge parcel. 
Private inholdings may seem of small consequence, especially if the 
majority of the surrounding land is already legally protected and 
managed for wildlife. But those scattered and sometimes small 
inholdings can have a disproportionate and often adverse effect on the 
ability of a refuge to achieve its purpose. In a real way, strategic 
acquisitions or easements can significantly simplify management and 
reduce expenses related to signage, fencing, law enforcement patrols, 
legal permits, rights-of-way conflicts, fire fighting, road 
maintenance, habitat management and restoration, fighting invasive 
species, and meet important conservation objectives.
    For example, at Laguna Atascosa NWR in Texas, acquisition of a 
tract already bordered on three sides by the refuge would result in 
significant savings in terms of reduced law enforcement patrols and 
maintenance, and improved management effectiveness. The refuge would no 
longer require: maintenance for over 3 miles of fencing, which would 
save nearly $200,000 over about 15 years; personnel to respond to 
frequent cattle trespassing; or maintenance of fire breaks. In 
addition, the acquisition would significantly improve the refuge's 
ability to properly manage most of the water in the Bahia Grande 
basins.
    The Refuge System doesn't only acquire land to benefit wildlife, 
people, and to streamline management and save money--we also contribute 
to national security and a well-trained military. For example, Fort 
A.P. Hill is one of the largest military installations on the East 
Coast, but is located in a rapidly growing area in northern Virginia. 
Urban and suburban development has become a major challenge for 
military installations nationwide. Incompatible development--primarily 
residential housing and stores--close to an installation's boundary can 
limit training and other military operations. And so, in 2009, Fort 
A.P. Hill, using its Army Compatible Use Buffer (ACUB) program, 
partnered with nearby Rappahannock River Valley NWR and other partners 
to cost-share the preservation of adjacent lands that hold conservation 
and historic value. The ACUB program benefits military installations by 
providing buffers between the installations and neighboring 
communities. This enables the Army to more fully utilize the 
installations for military purpose. In the case of Fort A.P. Hill 
nearly 3,000 acres were preserved--a situation good for wildlife and 
the preparedness of our nation's military.

Conclusion
    The Refuge System is nothing if not creative and focused. Creative 
in its use of partnerships to achieve an impressive amount of 
conservation work, and focused in its wise use of limited resources to 
get the highest-priority jobs done. While we always strive for a 
prioritized, efficient approach, it is true that higher budgets allow 
us to get more conservation done, and provide higher quality services 
to visitors. And during lean times, we are able to make the tough 
choices by prioritizing and using our resources efficiently, while 
continuing our commitment to excellent public service.
    The Refuge System continues to seek ways to streamline management 
and find efficiencies. We have many ways to accomplish this, but one of 
the most effective ways is to remember, and act upon, the foresight and 
wisdom that Congress showed more than a decade ago, when in 1997 the 
National Wildlife Refuge System Improvement Act ordered the growth of 
``. . .the System in a manner that is best designed to accomplish the 
mission of the System. . .to contribute to the conservation of the 
ecosystems of the United States. . ..''
    We appreciate the Subcommittee's attention to this important issue 
and hope we can cooperate to identify solutions that address our 
highest priority needs while still allowing the Refuge System to meet 
its mission.
                                 ______
                                 
    Dr. Fleming. I thank you, Mr. Kurth, for your testimony. 
Next, we have Ms. Clark of the Defenders of Wildlife. You are 
now recognized for five minutes.

              STATEMENT OF JAMIE RAPPAPORT CLARK, 
        EXECUTIVE VICE PRESIDENT, DEFENDERS OF WILDLIFE

    Ms. Clark. Mr. Chairman and Members of the Subcommittee, I 
am Jamie Rappaport Clark, Executive Vice President of the 
Defenders of Wildlife, and I really appreciate the opportunity 
to testify today.
    Defenders has more than a million members and supporters, 
and is dedicated to the protection and restoration of all wild 
animals and plants in their natural communities. As such, we 
have been involved in the National Wildlife Refuge System law 
and policy for decades.
    We also work to secure strong investments in refuges as a 
member of the Cooperative Alliance for Refuge Enhancement. As 
the only Federal land system in the United States dedicated 
primarily to wildlife conservation, the refuge system is of 
paramount importance to all Americans, especially the 40 
million people who, like me, enjoy refuges each year for 
vacation destinations, or a break from the everyday city work 
life that we are all wrapped up in.
    Having served as Director of the Fish and Wildlife Service 
from 1987 to 2001, I am very familiar with the causes and 
implications of the Refuge System's operations and maintenance 
backlog, and don't take them lightly.
    The growth of the now $3.3 billion backlog is due to 
consistent budget shortfalls which forces unfunded projects 
into the growing list of deferred operations and maintenance 
work.
    CARE has estimated that the refuge system needs at least 
$900 million annually to support and to adequately meet its 
annual program costs. Yet, at its highest funding levels, it 
reached only about $503 million in 2010.
    Because appropriations typically fail to cover increases in 
the annual fixed costs--utilities, rent, fuel, things like 
that--funding to pay for these rising expenses is deferred from 
important programs, further adding to the backlog.
    As a result, Refuges are severely understaffed as you 
mentioned, and lack the resources to get ahead of today's 
conservation challenges, which are quite daunting. Visitor 
facilities go without needed maintenance, and employees 
struggle to maintain even existing recreational opportunities.
    Yet, not surprisingly in today's society, the number of 
refuge visitors keeps growing. With visitors spending estimated 
to contribute $1.7 billion annually to local communities, 
stronger Congressional investments in the refuge system would 
pay even greater dividends to the local gateway communities and 
local economies.
    But there is hope. Recent increases in funding and 
improvements, and in oversight and management efficiencies, as 
Mr. Kurth mentioned, have reduced the operations backlog by 
more than $300 million, and have kept the maintenance backlog 
steady at about $2.7 billion for several years.
    I will offer the following recommendations to build on this 
success. First, it is critical that Congress work each year to 
approach a funding level that at the minimum covers the Refuge 
System's annual operating needs, and the annual needs adjusted 
upwards, to account for the rising fixed costs that happen 
every year.
    Second, Congress should highlight funding of critically 
needed staff positions that enable refuges to leverage 
additional resources. As an example, the San Luis National 
Wildlife Refuge Complex in California has effectively tripled 
its annual operating budget by engaging other stakeholders.
    At many refuges, however, personnel are generally spread 
too thin to even be able to capitalize on similar 
opportunities. Third, Congress and the Administration should 
build on the Refuge System's newly initiated inventory and 
monitoring program.
    Collecting baseline data and tracking trends on each refuge 
is essential to accurately determine priority management and 
funding needs so that the dollars that are available are 
directed to where they will be most effective and have long 
range conservation gains.
    Standardizing data collection and information management 
needs among the various agencies as well will make this even 
more useful. Finally, Congress and the Administration must 
continue to invest in land acquisition, which benefits the 
American people by safeguarding clean air and water, and 
providing space for the important outdoor recreation needs, 
protecting vital wildlife habitat and supporting local 
economies.
    Many acquisitions require little or no subsequent 
investment, and some actually reduce operations and maintenance 
costs by streamlining management efforts. The National Wildlife 
Refuge System is a vital part of America's natural heritage.
    Continuing to invest by reducing the operations and 
maintenance backlog, and making critically important land 
acquisition investments will pay dividends for our children and 
future generations. Thank you for the opportunity to share my 
perspectives on this critical issue, and I am happy to respond 
to questions.
    [The prepared statement of Ms. Clark follows:]

     Statement of Jamie Rappaport Clark, Executive Vice President, 
                         Defenders of Wildlife

    Mister Chairman and members of the subcommittee, I am Jamie 
Rappaport Clark, Executive Vice President of Defenders of Wildlife 
(``Defenders''). I greatly appreciate this opportunity to testify on 
behalf of Defenders today.
    Founded in 1947, Defenders has more than one million supporters 
across the nation and is dedicated to the protection and restoration of 
all wild animals and plants in their natural communities. Defenders has 
been substantively involved in National Wildlife Refuge System law and 
policy for decades, and actively worked for passage of legislation that 
culminated in the landmark National Wildlife Refuge System Improvement 
Act of 1997 (``Refuge Improvement Act''). Defenders has also been a 
leading voice in the formulation of national policy guidance issued 
since passage of the Refuge Improvement Act, including policies 
addressing planning, compatibility and appropriateness of secondary 
uses, biological integrity, diversity and environmental health, 
wilderness, and recreational use. In addition, since 1995, Defenders 
has been an active member of the Cooperative Alliance for Refuge 
Enhancement (``CARE''), a diverse coalition of 21 organizations, 
including the Association of Fish and Wildlife Agencies, the National 
Rifle Association, and the U.S. Sportsmen's Alliance. Representing more 
than 14 million Americans, CARE works to educate Congress and the 
American public about the Refuge System and to secure strong 
investments in the valuable wildlife, lands, and waters it protects.
    As the only federal land system in the U.S. dedicated primarily to 
the conservation of wildlife and habitat, the Refuge System is of 
paramount importance to Defenders and to all Americans, especially the 
more than 40 million people who visit and enjoy national wildlife 
refuges each year. Having also served as Director of the U.S. Fish and 
Wildlife Service (``Service'') from 1997 to 2001 after a career in 
federal service as a wildlife biologist first with the Department of 
the Army and then with the Service, I am very familiar with the causes 
and implications of the Refuge System's operations and maintenance 
backlog. In my testimony, I will highlight these subjects, as well as 
offer some suggestions for addressing the backlog.

The Growth of the Backlog
    The Refuge System's estimated operations and maintenance backlog 
has grown from approximately $1 billion in 1996 to its current total of 
$3.3 billion. There are several causes of this rapid growth. Most 
important to recognize is the System's chronic and severe underfunding. 
With appropriations that have consistently failed to cover annual 
program needs, unfunded projects have been forced onto the growing list 
of deferred operations and maintenance projects. The longer a project 
is delayed, the higher the cost of funding it later.
    Also largely unaccounted for in appropriations have been annual 
increases needed to cover rising fixed costs, including salaries, 
utilities, rent, and fuel. CARE estimates that the Refuge System needs 
at least $15 million each year just to keep up with these annual fixed 
costs. But as funding fails to include these adjustments, money to pay 
for these rising costs must be diverted from habitat management, 
visitor services, law enforcement, maintenance, or other programs, 
further adding to the extensive backlog.
    Finally, the magnitude of the backlog's growth since 1996 is 
misleading, as some of the increase can be attributed to changes in 
quantifying the System's facilities. Earlier calculations were based on 
inconsistent assessments that failed to account for basic assets such 
as roads and levees. By implementing a more comprehensive and 
standardized approach, the Refuge System now has more accurate records 
of its facilities, helping to correct earlier underestimates of true 
maintenance needs.

Impacts of the Backlog
    At $3.3 billion, the current backlog has left personnel struggling 
to uphold the System's mission to conserve wildlife for the American 
public, as well as to harness its full potential as an economic driver 
of local communities. At the end of FY 2010, nearly 12,800 refuge 
facilities were overdue for scheduled maintenance or replacement, 
accounting for a maintenance backlog totaling more than $2.7 billion. 
The operations backlog, at close to $677 million, consisted of 
approximately 5,600 project needs, including important staff positions; 
more than half of these needs are considered critical to the System's 
mission.
    These deficiencies have clearly taken a toll on the Refuge System. 
Refuges do not have the resources to treat millions of acres infested 
with invasive plants and animals. The staff of law enforcement 
officers, numbering 213, is barely one-quarter of the 845 officers 
recommended by the International Association of Chiefs of Police in a 
2005 analysis. In many cases, the System has coped with funding 
shortfalls by grouping several refuge units into a single complex, 
allowing staff and resources to be shared, though they are generally 
spread too thin to adequately address management needs.
    The impacts extend to the public as well. Funding shortfalls have 
meant that many visitor facilities go without needed maintenance or 
repairs, sometimes posing risks to public safety. Severe staffing 
shortages also hamstring efforts to expand or even maintain existing 
visitor use opportunities such as wildlife observation, hunting, 
fishing, and environmental education. Despite these challenges, a 
steadily growing number of refuge visitors, approximately 45 million in 
FY 2010, indicates that the Refuge System has only begun to scratch the 
surface of its true potential to attract the public. Furthermore, with 
the Service's Banking on Nature report estimating that spending by 
refuge visitors in 2006 contributed $1.7 billion to local communities 
alone, Defenders believes that stronger congressional investments in 
the Refuge System would pay even greater dividends by further improving 
the health of these local economies.

Addressing the Backlog
    While the backlog may appear insurmountable and has undoubtedly 
held the Refuge System back from fully delivering on its conservation 
and public use goals, progress has been made. Steady increases in the 
operations and maintenance budget between FY 2008 and FY 2010 have 
helped the System to not only keep pace with rising costs, but also 
begin to make progress on some of the management challenges that have 
held it back from reaching its full potential. Funds from the American 
Recovery and Reinvestment Act have also supported important projects on 
the maintenance backlog, which has held relatively steady at about $2.7 
billion during the past several years. Meanwhile, the operations 
backlog actually declined by more than $300 million as a result of 
utilizing new staffing models, updating project information, and 
securing partnership opportunities.
    These trends show that the combined efforts of the Administration 
and Congress can have meaningful, positive impacts on this backlog. 
Defenders urges the subcommittee to consider the following 
recommendations to build on these important steps forward.

Provide Annual Funding that Matches Annual Needs
    CARE has estimated that the Refuge System needs at least $900 
million to adequately meet its annual program costs. Yet, its highest 
funding level reached only $503 million in FY 2010. To prevent new 
projects from worsening the backlog, Congress must work to approach a 
funding level that, at a minimum, covers the Refuge System's annual 
needs. Each year, that funding must also be adjusted upward to account 
for rising fixed costs that would otherwise erode the System's ability 
to maintain a consistent level of management from one year to the next.

Support Partnerships and Volunteer Opportunities
    With many refuges severely understaffed, available personnel are 
generally spread too thin to capitalize on partnership opportunities 
that could otherwise improve volunteer involvement and leveraging of 
additional resources. In contrast, for example, San Luis National 
Wildlife Refuge Complex in central California, being comparatively well 
staffed, has been known to effectively triple its annual budget by 
engaging in partnerships with other interested stakeholders. These 
extra resources have enabled staff to accomplish more of its 
restoration work, treat more acres of invasive species, and provide 
more successful hunting programs for the public. This situation 
demonstrates the great potential that exists when sufficient staffing 
is available to foster such partnerships, and how much is being lost at 
other wildlife refuges without adequate staffing. We urge Congress to 
fund critically needed positions that will provide more refuges the 
capacity to harness opportunities like those at the San Luis Refuge 
Complex.

Advance a Coordinated Inventory and Monitoring Program
    The Service must continue working to identify opportunities to 
improve its management efficiency, which should include building on the 
Refuge System's newly initiated inventory and monitoring program. 
Collecting baseline data and tracking trends on each refuge is 
essential to more accurately determine management and funding needs so 
that dollars can be directed toward the highest-priority actions.
    Standardizing data collection and information management across all 
Service regions and among the various federal land management agencies 
will maximize the efficiency with which data can be analyzed and 
shared, as well as ensure that data will continue to be useful over 
time. Congress should work with the Administration to develop a 
streamlined and coordinated approach to inventory and monitoring work.

Continue to Invest in Wildlife Conservation and Ecosystem Services 
        through Critically Important Land Acquisition
    The Refuge Improvement Act, passed with overwhelming bipartisan 
support, directs the Secretary of the Interior to ``plan and direct the 
continued growth of the System in a manner that is best designed to 
accomplish the mission of the System, to contribute to the conservation 
of the ecosystems of the United States, to complement efforts of States 
and other Federal agencies to conserve fish and wildlife and their 
habitats, and to increase support for the System and participation from 
conservation partners and the public.'' In addition to protecting 
crucial wildlife habitat across an increasingly fragmented landscape, 
Defenders believes that land acquisition is a profitable investment 
that benefits the American public by safeguarding clean air and water 
supplies, providing space for outdoor recreation, and supporting local 
economies.
    Inholdings, in particular, provide great potential to directly 
address operations and maintenance costs. As refuges incrementally 
acquire land within their acquisition boundaries, private inholdings 
often leave a patchwork of protected land that creates challenges for 
activities such as invasive species control and fire management. 
Acquiring these lands from willing sellers improves habitat 
connectivity, in turn helping to reduce future federal management 
efforts and costs.

Conclusion
    The National Wildlife Refuge System is a vital part of America's 
natural heritage, conserving wildlife, providing clean water and other 
ecosystem services, affording abundant opportunities for hunting, 
fishing, and other outdoor recreation activities, and serving as a 
living laboratory for environmental education and science. Continuing 
to invest in the System today by reducing the operations and 
maintenance backlog and making critically important land acquisitions 
will pay tremendous dividends for our children and future generations. 
Defenders of Wildlife stands ready to work with Congress and the 
Administration to find efficient and cost-effective ways to reduce the 
Refuge System's operations and maintenance backlog. I thank you for the 
opportunity to share my perspectives on this critical issue, and I am 
happy to answer any questions you may have.
                                 ______
                                 
    Dr. Fleming. Thank you, Ms. Clark. Next is Mr. Dan Forster, 
of the Georgia Department of Natural Resources. You are now 
recognized for five minutes, sir.

    STATEMENT OF DAN FORSTER, DIRECTOR, WILDLIFE RESOURCES 
       DIVISION, GEORGIA DEPARTMENT OF NATURAL RESOURCES

    Mr. Forster. Thank you, Mr. Chairman, for the opportunity 
to share perspectives of the Association of Fish and Wildlife 
Agencies on the operations and maintenance backlog within the 
National Wildlife Refuge System.
    I am Dan Forster, and I serve as the Director of the 
Wildlife Resources Division with the Georgia Department of 
Natural Resources, and am Vice Chairman of the Executive 
Committee for the Association of Fish and Wildlife Agencies.
    The Association, and the 50 individual State Fish and 
Wildlife Agencies, have had a longstanding interest and 
involvement in the National Wildlife Refuge System, and were 
instrumental in deliberations leading to the passage of the 
National Wildlife Refuge System Improvement Act.
    The Refuge System has a long history of important 
contributions to conservation of our Nation's fish and wildlife 
resources, and support some of the fish and wildlife habitats 
in the country, as well as outstanding hunting and fishing 
opportunities.
    Refuges are also important to the local communities for 
wildlife dependent recreation. Our Association has consistently 
supported appropriate increases to the Fish and Wildlife 
Service's budget, and our appropriations recommendations 
provided to Congress each year, but let me acknowledge what we 
all know, which is that this is a stringent fiscal involvement 
in which we find ourselves.
    And the States are struggling financially as well. So we 
understand the budget constraints to which we seek to advance 
conservation. I would suggest that these circumstances compel 
even greater cooperation between the Service and the respective 
State Fish and Wildlife Agencies in order to prioritize fish 
and wildlife conservation needs, while continuing priority 
public uses on the National Wildlife Refuges.
    Let me reflect for a moment in Georgia. In my own State, 
the nine wildlife refuges, comprising half-a-million acres, are 
managed with just 44 staff positions. That is a shortfall of 48 
permanent and 18 temporary positions as identified in the 
refuge system's 2009 national staffing model.
    The staffing shortage for permanent positions exceeds 50 
percent. Without adequate in-house labor, small projects, such 
as repairing a boardwalk, simply don't get done in a timely 
manner.
    And tough priority-based decisions are being made 
concerning roads, trails, water impoundments, hatcheries, and 
other facilities, that impact the quality of a visitor's 
experience, and sometimes their safety.
    In Georgia, the current backlog for deferred maintenance is 
56.3 million, and additionally, there are more than 90 mission-
critical habitat projects totaling over 10 million that remain 
unfunded in our State.
    And while Georgia has not had to endure the wrath of 
catastrophes like our neighbors in southeastern States from 
hurricanes, oil spills, or floods, we have endured extended 
droughts and wildfires.
    Even today a wildfire in Okefenokee National Wildlife 
Refuge has burned more than 145,000 acres and is not yet fully 
contained. Such catastrophic events further inhibit the 
Service's ability to complete day-to-day maintenance work, and 
each crises stretches every available equipment operator, 
maintenance technician, and biologist from our respective 
agencies.
    And as a Service my agency in Georgia continues to struggle 
to do more with less, we are forging innovative partnerships to 
accomplish common goals. We are working together on a greenway-
`blueway project in the heart of Georgia near Piedmont and Bond 
Swamp National Wildlife Refuges to conserve land and water.
    On the coast, we are working cooperatively through the 
Atlantic Coast Joint Venture, and the Atlantic Flyway Council 
to conserve migratory bird habitats, while enhancing bird 
watching and hunting on private lands, and State lands, as well 
as refuge lands.
    And, finally, we joined forces with the Service and others 
in the fledgling South Atlantic Landscape Conservation 
Cooperative. We believe that the LLC's collaborative science 
based approach to large scale conservation efforts is the best 
way to ensure that we are spending the right dollars in the 
right place.
    And as Congress considers how to address the refuge 
backlog, I would certainly ask that you look favorably upon 
resource needs of some of these important partnerships as well.
    Let me conclude simply by reiterating that cooperation with 
the State Fish and Wildlife Agencies can result in improved 
deficiencies, but States need to be engaged early by the 
Service to meet both the local refuge mission, but also 
contribute to the conservation objectives of the State Fish and 
Wildlife Agency.
    Mr. Chairman, I am honored to be here before you today. I 
appreciate the chance to speak, and would be happy to address 
any questions that you may have. Thank you.
    [The prepared statement of Mr. Forster follows:]

   Statement of Dan Forster, Director, Wildlife Resources Division, 
                Georgia Department of Natural Resources

    Thank you, Mr. Chairman, for the opportunity to share the 
perspectives of the Association of Fish and Wildlife Agencies on the 
operations and maintenance backlog within the National Wildlife Refuge 
System. I am Dan Forster, Director of the Georgia Wildlife Resources 
Division and Vice Chair of the Executive Committee of the Association 
of Fish and Wildlife Agencies. All 50 states are members of the 
Association.
    The Association of Fish and Wildlife Agencies promotes and 
facilitates sound fish and wildlife management and conservation, and is 
the collective voice of North America's fish and wildlife agencies. The 
Association provides its member agencies and their senior staff with 
coordination services that range from migratory birds, fish, habitat, 
and invasive species, to conservation education, leadership 
development, and international relations. The Association represents 
its state fish and wildlife agency members on Capitol Hill and before 
the Administration on key conservation and management policies, and 
works to ensure that all fish and wildlife entities work 
collaboratively on the most important issues.
    The Association and the 50 individual State fish and wildlife 
agencies have a long-standing interest and involvement in the National 
Wildlife Refuge System, and its contribution to fish, wildlife and 
habitat conservation. We were instrumental in deliberations leading to 
the passage of the National Wildlife Refuge System Improvement Act of 
1997 (Improvement Act) and in assisting in the drafting of its 
implementing policies. Hunting, fishing and other wildlife-dependent 
recreational uses on National Wildlife Refuges are deeply valued by 
hunters, anglers and outdoor enthusiasts because of the tremendous 
opportunities refuges provide, especially in areas where public lands 
are limited. As you are aware, the sale of duck stamps, purchased by 
sportsmen and sportswomen, has historically provided the bulk of the 
funding for acquisition of refuges across the nation.
    The National Wildlife Refuge System has a long history of important 
contributions to the conservation of our nation's fish and wildlife. 
The Refuge System has grown enormously over the past century and, 
today, our National Wildlife Refuges support some of the best fish and 
wildlife habitats in the country, as well as outstanding hunting and 
fishing opportunities. Refuges are important to local communities for 
wildlife-dependent recreation. Through the Improvement Act, Congress 
recognized that these recreational activities promote effective refuge 
management and help the American public develop an appreciation for 
fish and wildlife. The Association and State fish and wildlife agencies 
are strongly committed to working cooperatively with the Service on 
managing the Refuge System.

NWR System Operations and Maintenance Backlog
    The Association acknowledges the significant backlog in this area 
and has consistently supported appropriate increases to the U.S. Fish 
and Wildlife Service budget in the Association's Appropriations 
recommendations provided each year to Congress. The Association was 
also a founding organization of the Cooperative Alliance for Refuge 
Enhancement (CARE) in 1995. This diverse group of fish and wildlife 
conservation organizations, sportsmen's organizations, and 
environmental organizations was formed to support and advocate enhanced 
funding for the National Wildlife Refuge System, reflecting the value 
of the System to all our citizens. The Association supports the works 
of CARE to bring attention to the needs of the System, and commends to 
you the most recent Annual Report, which synthesizes the compelling 
needs of the NWR System.
    With respect to the backlog and ways to remedy it, let me 
acknowledge what we all know, and that is the stringent fiscal 
environment in which we find ourselves. The states have been and 
continue to endure budget reductions, staff furloughs, staff reductions 
and other measures, so we understand the budget constraints in which we 
seek to advance conservation. In this context of reduced and 
scrutinized state and federal budgets, I would suggest that these 
circumstances compel even greater cooperation between the FWS and the 
respective state fish and wildlife agency in order to prioritize fish 
and wildlife conservation needs while continuing priority public uses 
of the NWRs, the so-called ``big 6''--hunting, fishing, wildlife 
observation and photography, environmental education, and 
interpretation. Both the FWS and the States have authorities and 
responsibilities for managing fish and wildlife on the NWRS. The 
Improvement Act of 1997 gives clear Congressional direction to and 
encouragement of that cooperation, creates a framework in which it can 
and should happen, and acknowledges the value of state fish and 
wildlife strategic plans in informing NWR conservation and public use 
programs. Further in my statement I summarize for the record those 
particular aspects of the so-called Refuge Organic Act (the Improvement 
Act).
    Let me reflect here on the work of the Georgia Wildlife Resources 
Division with the Fish and Wildlife Service on NWR management to 
illustrate needs and opportunities to be realized by closer 
cooperation.
    In my own State of Georgia, the 9 national wildlife refuges 
comprising half a million acres are managed with just 44 staff 
positions. That's a shortfall of 48 permanent and 18 temporary 
positions as identified in the Refuge System's 2009 national staffing 
model. The staffing shortage for permanent positions exceeds 50 
percent.
    It's important to explain the backlog in operations and maintenance 
in the context of the priority public uses for wildlife-dependent 
recreation outlined in the Improvement Act. Without adequate in-house 
labor, small projects like repairing a boardwalk or information kiosks 
that support environmental education, wildlife photography and birding 
opportunities simply don't get done in a timely manner. In addition, 
tough priority-based decisions are being made concerning annual 
maintenance projects on roads, trails, and other refuge facilities that 
impact the quality of our visitors' experience as well as their safety. 
Freshwater impoundments and associated facilities don't get the 
maintenance they need impacting public hunting opportunities for 
waterfowl and other priority uses. In Georgia, the current backlog for 
deferred maintenance on existing facilities is $56.3 million. 
Additionally, more than 90 mission-critical habitat projects totaling 
$10.1 million remain unfunded in Georgia.
    And while Georgia has not been hit with major catastrophes to the 
same degree our neighboring Southeastern states have had to endure from 
Hurricanes Katrina and Rita in 2005, to last year's BP oil spill, to 
the ongoing floods in the Mississippi Valley, extended droughts and 
wildfires have afflicted us. You may remember the record setting Big 
Turnaround Fire at Okefenokee NWR in 2007, and today a wildfire at 
Okefenokee has burned more than 145,000 acres and is not yet fully 
contained. Such catastrophic events further inhibit the Service's 
ability to complete day-to-day maintenance work. Each crisis stretches 
every available equipment operator, maintenance technician, 
firefighter, and biologist from our respective agencies.
    The Service and my agency in Georgia continue to struggle to do 
more with less. As we face these collective challenges, we are forging 
innovative partnerships to accomplish common goals. In the heart of 
Georgia, we are working together on a greenway-blueway trail plan to 
conserve land and waters that increase recreational opportunities and 
eco-tourism in the Ocumulgee River Floodplain near the Piedmont and 
Bond Swamp National Wildlife Refuges. On the coast, we are working 
together on both the Atlantic Coast Joint Venture and the Atlantic 
Flyway Council to conserve migratory bird populations while enhancing 
bird watching and hunting opportunities on private lands, State areas, 
and coastal Refuges. On the southern boundary, surrounding our iconic 
Okefenokee Swamp, we are cooperating with private landowners to battle 
the ongoing 147,000-acre wildfire on the Okefenokee National Wildlife 
Refuge. Together, these help us meet ``the big 6'' priority public 
uses.
    Finally, to contribute to the conservation objectives my state 
agency has and the science capacity my agency needs to meet those 
objectives, we have joined forces with the Service and our partners 
around the conservation table in the fledgling South Atlantic Landscape 
Conservation Cooperative. We believe the LCC's collaborative, science-
based approach to large-scale conservation efforts is the best way to 
ensure we are spending the right dollar in the right spot. As Congress 
considers how to address the National Wildlife Refuge System's critical 
maintenance backlog, please also consider the resource needs of these 
important partnerships.

National Wildlife Refuge System Improvement Act of 1997
    The Improvement Act, completed after years of bipartisan discussion 
and deliberation, truly represents a benchmark in the history of the 
Refuge System. It established a statutory mission of the Refuge System 
to administer a national network of lands and waters for the 
conservation, management and, where appropriate, restoration of fish 
and wildlife and their habitats. With the Improvement Act, Congress 
reaffirmed that National Wildlife Refuges are for fish and wildlife 
conservation first, clearly setting them apart from other federal 
public lands. In addition, Congress directed the Service that 
compatible wildlife-dependent recreational uses are the priority 
general public uses of the Refuge System and shall receive priority 
consideration in refuge planning and management. No less important is 
Congress' direction to the Service to effectively coordinate management 
of fish and wildlife within the Refuge System with state wildlife 
agencies.
    The Improvement Act, and its legislative history, is replete with 
explicit Congressional direction to the Secretary of the Interior (and 
thus the USFWS) regarding management of the System, its mission, 
appropriate public use, and coordination with the State fish and 
wildlife agencies.
    The mission of the NWR System is articulated in law as:
        ``The mission of the System is to administer a national network 
        of lands and waters for the conservation, management, and where 
        appropriate, restoration of the fish, wildlife and plant 
        resources and their habitats within the United States for the 
        benefit of present and future generations of Americans''.
    The law goes on to further articulate that it is the policy of the 
United States that:
        (A)  ``each refuge shall be managed to fulfill the mission of 
        the System, as well as the specific purposes for which that 
        refuge was established;
        (B)  compatible wildlife-dependent recreation is a legitimate 
        and appropriate general public use of the System, directly 
        related to the mission of the System and the purposes of many 
        refuges, and which generally fosters refuge management and 
        through which the American public can develop an appreciation 
        for fish and wildlife.
        (C)  compatible wildlife-dependent recreational uses are the 
        priority general public uses of the System and shall receive 
        priority consideration in refuge planning and management; and
        (D)  when the Secretary determines that a proposed wildlife-
        dependent recreational use is a compatible use within a refuge, 
        that activity should be facilitated, subject to such 
        restrictions or regulations as may be necessary, reasonable, 
        and appropriate.''
    The law defines ``wildlife dependent recreation'' and ``wildlife 
dependent recreational use'' to mean ``. . .a use of a refuge involving 
hunting, fishing, wildlife observation and photography, or 
environmental education and interpretation''. These activities have 
become popularly known in the jargon as ``the big 6''. Clearly Congress 
intended the Secretary to facilitate these ``big 6'' activities as long 
as they were compatible. As the Committee Report (House Report 105-106) 
further amplifies:
        ``The term `facilitated' was deliberately chosen to represent a 
        strong sense of encouragement, but not a requirement, that ways 
        be sought to permit wildlife-dependent uses to occur if they 
        are compatible. As Secretary Babbitt stated during the 
        negotiations leading to H.R. 1420: `The law will be whispering 
        in the manager's ear that she or he should look for ways to 
        permit the use if the compatibility requirement can be met.' By 
        the same token, however, the Committee recognizes that there 
        will be occasions when, based on sound professional judgment, 
        the manager will determine that such uses will be found to be 
        incompatible and cannot be authorized.''
    And, with respect to the issue of budget shortfalls and 
facilitation of the ``big 6'' uses, the Committee Report contemplated 
this circumstance and provide this direction:
        ``New Section 5(3) defines the term `sound professional 
        judgment' as the collection of findings, determinations and 
        decisions that support compatibility determinations. Such 
        determinations are inherently complex and will require the 
        manager to consider principles of sound fish and wildlife 
        management and administration, available science and resources, 
        and compliance with applicable laws. Implicit within this 
        definition is that financial resources, personnel and 
        infrastructure be available to manage permitted activities. The 
        Committee expects the USFWS to be energetic and creative in 
        seeking such resources, including partnerships with the States, 
        local communities and private and nonprofit groups. The 
        Committee also expects the USFWS to make reasonable efforts to 
        ensure that lack of funding is not an obstacle to permitting 
        otherwise compatible wildlife-dependent recreational uses.''
    The law further directs that the Secretary shall, in administering 
the System,''. . .ensure effective coordination, interaction, and 
cooperation with. . .. the fish and wildlife agency of the State in 
which the units of the System are located.'' And, Congress further 
directed that the Secretary, in preparing a comprehensive conservation 
plan for each refuge, do so not only consistent with the Improvement 
Act, but ''. . .to the extent practicable, consistent with fish and 
wildlife conservation plans of the state in which the refuge is 
located. . .'' Finally, Congress exempted coordination with State Fish 
and Wildlife Agency personnel pursuant to the Improvement Act from the 
application of the Federal Advisory Committee Act. We conclude that 
this is very clear statutory direction that management of the System is 
done in close cooperation with the state fish and wildlife agencies.
    I would direct your attention to USFWS Policy 601 FW 7, entitled 
``Coordination and Cooperative Work with State Fish and Wildlife Agency 
Representatives on Management of the National Wildlife Refuge System''. 
It says, in part:
        ``Sec. 4 What is the Service's policy on coordination with the 
        States?
                a)  Effective conservation of fish, wildlife, plants 
                and their habitats depends on the professional 
                relationship between managers at the State and Federal 
                level. The Service acknowledges the unique expertise 
                and role of State fish and wildlife agencies in the 
                management of fish and wildlife.
                b)  Both the Service and the State fish and wildlife 
                agencies have authorities and responsibilities for 
                management of fish and wildlife on national wildlife 
                refuges as described in 43 CFR 24. Consistent with the 
                National Wildlife Refuge System Administration Act, as 
                amended by the National Wildlife Refuge System 
                Improvement Act, the Director of the Service will 
                interact, coordinate, cooperate, and collaborate with 
                the State fish and wildlife agencies in a timely and 
                effective manner on the acquisition and management of 
                national wildlife refuges. Under the Administration Act 
                and 43 CFR 24, the Director as the Secretary's designee 
                will ensure that National Wildlife Refuge System 
                regulations and management plans are, to the extent 
                practicable, consistent with State laws, regulations, 
                and management plans. We charge refuge managers, as the 
                designated representatives of the Director at the local 
                level, with carrying out these directives. We will 
                provide State fish and wildlife agencies timely and 
                meaningful opportunities to participate in the 
                development and implementation of programs conducted 
                under this policy. This opportunity will most commonly 
                occur through State fish and wildlife agency 
                representation on the comprehensive conservation plan 
                (CCP) planning teams; however, we will provide other 
                opportunities for the State fish and wildlife agencies 
                to participate in the development and implementation of 
                program changes that would be made outside of the CCP 
                process. Further, State fish and wildlife agencies will 
                continue to be provided opportunities to discuss and, 
                if necessary, elevate decisions within the hierarchy of 
                the Service''.

Conclusion
    Let me conclude by reiterating that with respect to the System 
maintenance and operations in light of budget shortfalls, cooperation 
with the State fish and wildlife agencies can result in better 
ameliorating the results of budget shortfalls, but states need to be 
engaged early by the Service. Both the FWS and State fish and wildlife 
agencies have authorities and responsibilities for managing fish and 
wildlife on NWRs. A collective discussion between the FWS and the State 
fish and wildlife agency can reflect on which respective agencies have 
what capability and resources to continue effective administration of 
the individual refuge to meet both its mission and its contribution to 
the conservation objectives of the State fish and wildlife agency. 
State fish and wildlife agencies likely will want to assist (or 
continue to assist) in administration of certain programs as hunting 
and fishing but many will likely need some provision of federal funding 
or at least a cost-sharing of some type. Otherwise, this could become 
an unfunded mandate to the states.
    We are concerned that the Service's practice (in response to budget 
shortfalls) of putting Refuges into ``preservation'' status could mean 
no public activities, including the ``big 6'' mandated by Congress, 
will be allowed. There needs to be clear direction from the USFWS 
Director that the provision of these 6 activities are priority public 
uses and all other uses are secondary to them. Let me reiterate again 
that we have no argument that the conservation mission of the System is 
pre-eminent and that the FWS, in cooperation with the State fish and 
wildlife agencies, is obligated to fulfill that mission. But, it is 
eminently clear that the ``big 6'' are the priority public uses and 
Congress has directed the Service to facilitate those uses.
    Finally, the Service is currently moving forward with an enormous 
effort to develop a renewed vision for the National Wildlife Refuge 
System, with the national conference, Conserving the Future: Wildlife 
Refuges and the Next Generation, to be held in Madison, Wisconsin in 
July 2011. The Association and State fish and wildlife agencies are 
represented on the vision process steering committee, and will 
participate in the vision conference, to address the states' priorities 
for the Refuge System. The Service's Conserving the Future Conference 
provides the perfect forum for facilitating discussions on the issues 
raised in this testimony, reaffirming the importance of the Improvement 
Act and its direction to the Service regarding management of the Refuge 
System, its mission, appropriate public use, and coordination with the 
State fish and wildlife agencies, and how best to implement the 
Service's new vision.
    Mr. Chairman and honored committee members, thank you for the 
opportunity to share our perspectives and I would be pleased to address 
any questions.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Forster. And that was perfect 
timing, within three seconds of five minutes. You may get the 
prize today. Next we have Ms. Recce of the National Rifle 
Association. You are recognized, Ma'am, for five minutes.

 STATEMENT OF SUSAN RECCE, DIRECTOR, DIVISION OF CONSERVATION, 
 WILDLIFE, AND NATURAL RESOURCES, INSTITUTION FOR LEGISLATIVE 
               ACTION, NATIONAL RIFLE ASSOCIATION

    Ms. Recce. Thank you, Mr. Chairman. The National Rife 
Association appreciates the invitation that was extended to us 
to testify. The growing backlog of operation and maintenance 
needs within the Refuge System has been of great concern to the 
NRA and its hunter members as far back as 15 years ago.
    We helped form a coalition to address this problem that was 
just mentioned, which is the Cooperative Alliance for Refuge 
Enhancement, and the NRA has been an active participant in that 
CARE group over the past 15 years.
    We are also here because hunters have been the backbone of 
the Refuge System dating back to 1903 when the first refuge was 
created. More than $50 million has been generated for the 
Refuge System, largely by waterfowl hunters through the 
purchase of the Duck Stamp, which has added more than five 
million acres of wetland and grassland habitat to the system.
    This volunteer citizen based revenue for Federal land 
acquisition is unparalleled anywhere else, and exemplifies the 
unique role that hunters play in wildlife conversation. Some 
might suggest that funding for land acquisition further 
exacerbates the problem of financing the management 
responsibilities that go with acquiring new land.
    The NRA views the Duck Stamp revenue and Congressional 
appropriations for land acquisition as a requirement for good 
citizen and government investment, and in the present and 
future protection and restoration of wildlife resources that 
this country is blessed with.
    Mr. Chairman, the NRA appreciates the attention that your 
Subcommittee is focusing on the backlog, and of particular 
concern to us is the impact that it could have on hunting, 
which is a wildlife dependent activity recognized as a priority 
public use in the Refuge System Improvement Act of 1997.
    Over half of the 533 refuges which we have today are open 
to hunting. What is unlikely is that the refuge system will 
become self-sustaining or fully funded with annual 
appropriations. More can be done with what is already being 
utilized.
    First is strengthening partnerships, especially with the 
Fish and Wildlife Agencies, which Mr. Forster just spoke about. 
Second, is the better utilization of volunteers. People who 
volunteer their time and labor at refuges contribute around 20 
percent of the total work accomplished.
    That is the equivalent of 643 full-time employees out of a 
workforce of 3,500. One-fifth of the total projects 
accomplished by volunteers is an impressive figure, but it is 
possible to increase that.
    Volunteers are supervised by visitor services staff, but 
often times when the money is tight the position is absorbed or 
not filled, meaning that all the potential volunteer labor 
can't be harnessed.
    It also takes staff time to train volunteers to teach and 
supervise others, and so the network of volunteers could be 
hugely expanded with a small investment in visitor services for 
staff.
    Further, volunteers are a resource that can be shared by 
several State and Federal land managers in a geographic area. 
So there would be no loss of opportunity for those who want to 
volunteer.
    This is an area that needs to be examined closely as many 
of the baby boomer generation have retired, or about to retire, 
and have the health, education, income, skills, and interest to 
do something of value.
    Another administrative step would be to expand the 
interagency partnership that was created in Nevada in 1997, 
where the four Federal land management agencies formed a 
Southern Nevada Agency Partnership, or SNAP.
    They share resources and agency volunteers, and law 
enforcement duties are cross-delegated, and they work together 
on long term planning. Another idea that has been discussed is 
the issuance of a stamp, the cost of which could be a few cents 
above the cost of the current postage stamp, with the 
additional funds going to the Refuge System.
    The Postal Service recently issued a stamp for 
international wildlife. Congress could do something similar for 
our native wildlife and the Refuge System. You had mentioned 
about fee increases, and I just want to say that I am concerned 
about any further increases, because I think that there are a 
lot of the public who believe that their taxpayer dollars 
already pay for the upkeep of Federal lands, even though we 
know that is not the case.
    And so I am concerned that there may be resistance to that. 
I also believe that the Fish and Wildlife Service, and the 
other land managing agencies have had ample time to tap the 
authorities and resources available to them to raise revenue 
through that source, and I think that we might want to be 
needing to look elsewhere.
    And in closing the refuge system protects resources that 
hunters and millions of other Americans cherish, and they have 
put a lot of their time and money into protecting that 
investment.
    The first and least costly approach to reducing the backlog 
is for the Administration to find ways in which volunteerism 
and partnerships with State and Federal Agencies can be 
improved and expanded upon. This concludes my remarks. Thank 
you.
    [The prepared statement of Ms. Recce follows:]

 Statement of Susan Recce, Director, Division of Conservation Wildlife 
           and Natural Resources, National Rifle Association

    The National Rifle Association (NRA) appreciates the invitation to 
testify today. The growing backlog of operation and maintenance needs 
within the Refuge System is of such concern to the NRA and its hunter 
members that we helped form a coalition more than 15 years ago to 
address this problem. We have been an active participant in the 
Cooperative Alliance for Refuge Enhancement (CARE) since that time.
    Hunters have been the backbone of the National Wildlife Refuge 
System dating back to 1903 when hunter-conservationist President 
Theodore Roosevelt established Pelican Island as the first national 
wildlife refuge. Today, there are 553 refuges, with over half or 322 
opened to hunting.
    Over the past 7 decades, more than $750 million have been generated 
for the Refuge System, largely by waterfowl hunters through the 
purchase of the Duck Stamp. This amounts to nearly $25 million 
annually. The Duck Stamp was J.N. ``Ding'' Darling's visionary approach 
to building a system of federal lands that are set aside primarily for 
wildlife and the protection of habitat.
    Ninety-eight cents out of every Duck Stamp dollar is spent directly 
on purchasing land for the Refuge System. Thanks to the support of 
hunters across America, more than 5 million acres of wetland and 
grassland habitat has been added to the Refuge System. This volunteer, 
citizen-based revenue for federal land acquisition is unparalleled 
anywhere else, in the United States or the world, and exemplifies the 
unique role that hunters play in wildlife conservation.
    Some might suggest that funding for land acquisition further 
exacerbates the problem of financing the management responsibilities 
that go with acquisition of new lands. The NRA views the Duck Stamp 
revenue and Congressional appropriations for land acquisition as a 
requirement for good citizen and government investment in the present 
and future protection and restoration of natural resources that this 
country is blessed with.
    That is why the NRA supports CARE's mission to increase the level 
of operations and maintenance funding for the Refuge System through 
moderate increases in annual appropriations. That mission helps protect 
our hunters' long-standing investment in the Refuge System.
    Well known is the fact that the operations and maintenance backlog 
for the Refuge System is over $3.6 billion; a backlog that can affect 
the ability of the Fish and Wildlife Service to provide quality 
opportunities for hunting, fishing, and other wildlife-dependent 
recreation. The figure is staggering, but what federal land system does 
not have a long list of needs with a sizeable price tag at the end of 
the column. The National Park Service, as an example, faces in the 
neighborhood of $9 billion in backlog needs.
    Mr. Chairman, the NRA appreciates the attention your Subcommittee 
is focusing on the current backlog of the Refuge System and inviting 
suggestions on how to address this burden that hangs over the Refuge 
System. There is no question that the size of the backlog means that 
many critical elements of running the Refuge System, like wildlife and 
habitat management projects, facility upkeep and equipment maintenance, 
cannot be accomplished or are severely constrained because of limited 
funding.
    Of particular concern to us is the impact on wildlife-dependent 
activities such as hunting, fishing, and wildlife viewing that were 
recognized as important responsibilities of the Refuge System when they 
were made ``priority public uses'' in the National Wildlife Refuge 
System Improvement Act of 1997. All those who value this unique system 
of lands have a real concern over how to keep annual funding levels at 
least minimally adequate.
    In the letter of invitation, Mr Chairman, you asked several 
questions of the witnesses. The first question is why the operations 
and maintenance backlog has increased over seven fold in the last 15 
years.
    It probably goes without saying that fixed costs are always on the 
rise and that it will always be a contributing factor as are costs 
associated with deferring maintenance so that repair costs are greater 
when the problem has grown larger. But I believe the greatest factor is 
due to a better accounting of what assets the Refuge System contains 
and, consequently, the costs associated with maintaining those 
additional assets.
    The partnership that CARE has developed with the Fish and Wildlife 
Service over the same period of time could have resulted in this 
increased backlog because of the importance that CARE has placed on a 
scrupulous accounting of operations and maintenance needs, along with 
the accounting of every dollar spent on the backlog. Given that the 
span of time under review parallels that of CARE's existence, an 
improved tracking system that CARE insisted upon could be the reason 
why the backlog increased substantially over the last 15 years.
    CARE has consistently asked for concrete date from the Service that 
would allow us to understand the backlog and overall needs of the 
Refuge System in order to fully function. Our requests for information 
have become more finely tuned, and as a result the way in which the 
Service collects data has improved. As the Service becomes more 
efficient in the way information is collected, the backlog will likely 
grow, although in some cases it has declined. As noted in CARE's 20ll 
report to Congress entitled, ``Restoring America's Wildlife Refuges'' 
the operations backlog was reduced from $1 billion to $677 million due 
to new staffing models, the updating of project information and the 
leveraging of partnerships.
    There are also specific impacts on operation and maintenance needs 
that have contributed substantially to the $3.3 billion backlog. As 
noted in CARE's 201l report, the cost of demolition and management for 
7 refuges established since FY 2000 on former military sites added 
$65.5 million alone to the backlog. The cost of the cleanup was not 
absorbed by the Department of Defense before the lands were transferred 
to the Service.
    I also believe that the challenges the Service faces and that the 
Refuge System has to respond to have also increased like fighting the 
spread of invasive species, improving habitat for the growing list of 
threatened and endangered species, intensifying land management in the 
face of the incursion of suburban development deeper into rural areas, 
and responding to contaminants that reach refuges from outside its 
borders. The important question is what steps can be taken 
administratively or legislatively to reverse this backlog, or at least 
to whittle it down.
    While there will likely never be solutions that will result in the 
Refuge System becoming self sustaining or fully funded with annual 
appropriations, I do believe more can be done with what is already 
being utilized. First is strengthening partnerships, especially with 
the state fish and wildlife agencies. Many state agencies already have 
agreements with specific refuges to assist in managing visitor 
programs, like hunting, as well as to share in law enforcement 
responsibilities and wildlife restoration projects of mutual benefit. 
The Association of Fish and Wildlife Agencies are in the best position 
to speak to that specifically.
    Second is the better utilization of volunteers. People who 
volunteer their time and labor at refuges contribute around 20% of the 
total work accomplished on refuges--the equivalent of 643 full-time 
employees for a workforce of just 3,500. One-fifth of the total 
projects on refuges accomplished by volunteers is an impressive figure, 
but it is possible to increase that percentage with some administrative 
adjustments.
    For example, volunteers are supervised by Visitor Services staff, 
but often times when the money is tight, the position is absorbed into 
other duties or not filled, meaning that all that potential in-kind 
labor and resource cannot be harnessed and utilized. It also takes 
staff time to train volunteers to teach and supervise other volunteers, 
so the network of volunteerism could be hugely expanded with a small 
investment in Visitor Services staff to manage a team of refuge 
volunteers.
    This is an area that needs to be examined closely as many people of 
the ``baby boomer'' generation have retired or about to retire and have 
the health, education, income, skills, and interest to do something of 
value. In order to tap this potentially huge pool of volunteers, the 
Fish and Wildlife Service has to have the staff resources to supervise 
and train volunteers. Further, volunteers are a resource that can be 
shared by several land managers in the geographic area so there would 
be no loss of opportunity to volunteer or work to be accomplished. It 
also may be valuable to have a survey conducted of volunteers and 
refuge ``Friends Groups'' to find out what they believe could be done 
to increase volunteerism on refuges. I suspect they know more than 
anyone else what it takes to recruit and retain good volunteers.
    Another administrative step would be to expand to other states the 
interagency partnership that has been developed in Nevada. In 1997, the 
4 land management agencies, the National Park Service, Forest Service, 
Fish and Wildlife Service and the BLM formed SNAP, the Southern Nevada 
Agency Partnership. They share resources and volunteers; law 
enforcement duties are cross delegated and they work together on long-
term planning. While each agency has its own mandates, they have a 
common goal of assisting each other.
    One idea that has been discussed is the issuance of a stamp, the 
cost of which could be a few cents above the cost of the current 
postage stamp with the additional funds going to the Refuge System. The 
Postal Service recently issued a stamp for international wildlife, the 
``Save Vanishing Species'' stamp at a cost of 55 cents to be sold for 
the next 2 years. This was the result of bi-partisan Congressional 
action last year. Congress could do something similar for our native 
wildlife. A Refuge System stamp, supported by the power of the 14 
million members and supporters that make up the CARE organizations, 
could be very successful.
    If it involves going to the public, any revenue raised outside of 
appropriations would have to be voluntary. Many people believe that 
their tax dollars pay for or should pay for the upkeep of federal 
public lands. Resistance to the payment of entrance fees has arisen 
because of that belief. So, it is unlikely that fee increases will be 
well-received. And, I believe that the Fish and Wildlife Service, along 
with the other agencies, have had ample time to tap the authorities and 
resources available to them to raise revenue through that source.
    In summary, the National Wildlife Refuge System protects resources 
that hunters and anglers and millions of other Americans cherish and 
they have put a lot of their own time and money into protecting that 
investment. There will always be some level of backlog that annual 
appropriations cannot cover. I believe the first and least costly 
approach to reducing the backlog that can't be done through 
appropriations is for the Administration to find ways in which 
volunteerism and partnerships with state and federal agencies can be 
improved and expanded.
                                 ______
                                 
    Dr. Fleming. Next we have William P. Horn of the U.S. 
Sportsmen's Alliance, who is now recognized for five minutes.

          STATEMENT OF HON. WILLIAM P. HORN, COUNSEL, 
               UNITED STATES SPORTSMEN'S ALLIANCE

    Mr. Horn. Thank you, Mr. Chairman, and Members of the 
Subcommittee, on behalf of the U.S. Sportsmen's Alliance, I 
appreciate the opportunity to testify today. My comments are 
also offered from the perspective of my service as Assistant 
Secretary of the Interior under President Reagan, and the 
privilege of having served as Chairman of the Wildlife Refuge 
Centennial Commission eight years ago.
    Now, in relative terms, refuges have been the red-headed 
stepchild of public lands within the Interior Department. While 
billions of dollars have been lavished on the smaller National 
Park System--and I should note that the NPS operating budget is 
well north of $2 billion a year--the Refuge System operates on 
less than one-quarter of the Park System's funding.
    And the Service, the Fish and Wildlife Service, is to be 
commended for having done a fine job over the years for doing 
much more with less, compared to its sister bureau. Despite 
these good efforts, the Service continues to fall behind in its 
ability to effectively manage the refuge system.
    And I think as the Chairman noted in his opening comments, 
our debt crisis means that it is highly improbable that this 
trend is going to be reversed by any significant expansion in 
appropriations.
    And I think that these facts mandate a fresh look at how 
the refuge system should be operated and should be funded. We 
would recommend that Congress consider the following options to 
redress the operations and maintenance issues.
    One, for there to be thorough scrutiny of funding 
priorities, with an emphasis on those actions that do not 
increase O&M costs, and those that decrease those costs.
    Two, that more efficient means of actually managing refuge 
units be identified; and, third, determine if expanded user 
activities and associated user fees can enhance management and 
operations revenues.
    Only a comprehensive effort to look at priorities, cost 
reductions, and revenue enhancements, are going to reverse the 
present adverse trends. I want to focus on those last two. Now, 
personnel costs dominated the refuge operations budget. Present 
numbers indicate that the average Fish and Wildlife employee 
working for the Refuge System costs over $90,000 a year.
    In contrast, most State Fish and Wildlife Agencies have 
significant lower personnel costs, and many State Agencies 
could likely provide comparable staffing for refuge units for 
20 to 30 percent less personnel costs.
    We strongly recommend that given the situations that we 
face that the Service and Congress look to contracting with 
State Fish and Wildlife Agencies to administer appropriate 
selected refuge units.
    Fish and Wildlife might be able to hire via this 
contracting the same number of professional qualified staff for 
significantly less money, enabling the Service to stretch its 
dollars and still put boots on the ground to effectively manage 
the refuge units.
    And I would note that the 1997 Refuge Act specifically 
includes language authorizing this very approach. Congress 
recognized that such flexibility could be important and 
anticipated allowing Fish and Wildlife to make the very such 
arrangements.
    Congress also needs to look at enhancing revenues from 
refuge users. Authority to allow refuge entrance and user fees 
was enacted in the mid-1980s during a similar period of Federal 
budget restraints.
    However, the Senate insisted when the bill passed that 80 
percent of those fees be dedicated to land acquisition rather 
than O&M. We think that given the O&M problems that it is time 
to revisit that split, and that is something within the purview 
of this Subcommittee and Congress.
    In addition, more activities could be subject to reasonable 
fees. Hunters and anglers already pay a multiplicity of license 
and stamp fees, as well as excise taxes, all of which make up 
the backbone of wildlife funding.
    Nonetheless, we are prepared to pay additional reasonable 
fees to help secure the refuge system. However, it is 
imperative that other users who have traditionally paid nothing 
for the privilege of using and enjoying refuges step up to the 
plate to pay their share, and join the anglers and the hunters.
    We believe that more revenue from refuge users is one way 
to provide more secure funding to augment appropriated dollars. 
This combination of actions can work to put the refuge system 
on a more sound financial footing, and the U.S. Sportsmen's 
Alliance stands ready to work with the Subcommittee, the Fish 
and Wildlife Service, and the broader community at-large to 
achieve these goals, and to secure the future for our 
incomparable wildlife refuge system. Thank you.
    [The prepared statement of Mr. Horn follows:]

            Statement of William P. Horn, on Behalf of the 
                   United States Sportsmen's Alliance

    Mr. Chairman: On behalf of the U.S. Sportsmen's Alliance (USSA), I 
appreciate the opportunity to testify today regarding operations and 
management funding for the National Wildlife Refuge System. USSA was 
organized in 1977 for the purposes of protecting the American heritage 
to hunt, fish, and trap and supporting wildlife conservation and 
professional wildlife management. It pursues these objectives at the 
federal, state, and local level on behalf of its over 1.5 million 
members and affiliates.
    USSA has been deeply involved in Refuge management issues since it 
intervened in litigation in the 70's to defend duck hunting on units of 
the Refuge system. USSA was a founding member of the Cooperative 
Alliance for Refuge Enhancement (CARE) and heavily engaged in the 1997 
enactment of the National Wildlife Refuge System Improvement Act 
(NWRSIA). My personal involvement and commitment to the Refuge system 
extends to my service as Assistant Secretary of the Interior for Fish, 
Wildlife, and Parks under President Reagan and the privilege of serving 
as the Chairman of the National Wildlife Refuge Centennial Commission 
in 2002-2003.
    In relative terms, the Refuge System has been the red headed step 
child of public lands systems within the Department of the Interior. 
While billions of dollars have been lavished on the smaller National 
Park system (the National Park Service operating budget is well north 
of $2 billion), the Refuge system operating budget is less than one-
quarter of Parks funding. The Fish and Wildlife Service (FWS) is to be 
commended for having done a fine job over the years for doing much more 
with less compared to its sister bureau. Nonetheless, FWS continues to 
fall behind in its ability to effectively manage the Refuge system and 
the maintenance backlog continues to grow. This trend puts the Refuges 
at risk. Federal funding limitations and the nation's debt crisis mean 
it is highly improbable that this trend can be reversed by expanded 
appropriations. These facts mandate a fresh look at how the Refuge 
system should be operated and funded.
    USSA recommends that FWS, and the Congress exercising its oversight 
authority, carefully consider the following options to redress the 
Refuge operations and maintenance problems: (1) scrutiny of funding 
priorities including an emphasis on actions that do not increase 
operations and maintenance costs; (2) more efficient means of actually 
managing Refuge units by contracting out management, pursuant to 
applicable federal Refuge management standards, to state fish and 
wildlife agencies which can provide management services for lower costs 
compared to federal personnel; (3) determine if expanded user 
activities and associated reasonable fees can enhance management and 
operations revenues; and (4) changes in law or regulations as may be 
necessary to authorize or facilitate these kinds of actions. Only a 
comprehensive effort to look at priorities, cost reductions, and non-
appropriations revenue enhancements will reverse the present adverse 
trends.
    Spending priorities must be thoroughly reviewed. We would suggest 
that wholesale land acquisition, which can add to long-term operations 
costs, be a diminished priority. Increasing land acquisition funding 
(via the Land and Water Conservation Fund) 63 percent to $140,000,000, 
as requested by the Obama Administration, while the Refuge operations 
budget remains flat at $503 million, makes little sense. Land 
acquisition via the Duck Stamp funded (i.e., hunter funded) Migratory 
Bird Fund and via partnership cost-shared programs such as the North 
American Wetlands Conservation Fund make sense during a period of 
budget restraint. This ensures that opportunities to add important 
habitats to the federal conservation estate can be realized. Similarly 
providing a reasonable level of acquisition funds via LWCF also enables 
FWS to purchase inholdings or take advantage of other unique 
acquisition opportunities. A fiscally prudent acquisition program 
should focus on unique opportunities to acquire high value lands where 
federal dollars are stretched via partnership arrangements that bring 
private monies to the table or less costly easements, compared to full 
fee purchase, are the target. A smarter acquisition program should 
enable significant funding to be redirected, in whole or in part, to 
Refuge operations. Such redirection of funding priorities could make a 
major contribution to enhancing Refuge system management.
    In a similar vein, USSA was struck that ``stimulus'' funding added 
to the Refuge system's maintenance backlog. Appropriated federal 
dollars were used to construct new visitor centers, creating new 
maintenance obligations, at multiple Refuges and fish hatcheries. The 
best advice to give a man in a hole is ``stop digging.'' Yet the 
Administration keeps digging and making the maintenance ``hole'' deeper 
by spending limited federal monies on capital projects creating more 
maintenance needs. Different priorities are needed to reverse the 
present adverse trends.
    Personnel costs dominate the Refuge operations budget. Present 
estimates are that the average FWS employee working for the Refuge 
system costs over $90,000 a year. This amount reflects salary, 
benefits, and associated costs. If a Refuge unit needs five staff to 
manage it, the personnel costs come in at $450,000 per year. In 
contrast, most state fish and wildlife agencies have lower personnel 
costs. USSA conducted an unofficial survey and found that wildlife 
professionals are retained by state agencies for substantially lower 
costs. Many state agencies could provide the same five staff (with 
comparable professional wildlife training) for 20 to 30 percent less 
cost. We strongly recommend that FWS look to contracting state fish and 
wildlife agencies to administer Refuge units. FWS might be able to 
``hire''--via contracting--the same number of professionally qualified 
staff for a lot less money. This would enable FWS to stretch its 
dollars and still put the boots on the ground to effectively manage the 
federal units.
    I would note that the 1997 Refuge Act includes language expressly 
authorizing this very approach (see section 5(b)(5) P.L. 105-57; 16 
U.S.C. Sec. 668dd(b)(4)). Congress and the Clinton Administration 
recognized that such flexibility could become important in the future 
and anticipated allowing FWS to make such arrangements. Any state 
agency hired to provide such management services would do so consistent 
with the purposes and mission of the Refuge unit as specified in the 
1997 Act. Hence there is no need to worry that a state wildlife agency 
contractor would administer a unit in derogation of the applicable 
federal legal standards.
    FWS and Congress also need to look at enhancing revenues from 
Refuge users. Authority to allow Refuge entrance and user fees was 
enacted in the mid-1980s during a similar period of federal budget 
restraint. However, the Senate then insisted that most of these dollars 
(approximately 80%) be directed to land acquisition accounts and only 
20 percent to operations. We suggest that this 80/20 split be revisited 
and the bulk of such revenues be directed to Refuge O & M.
    In addition, more activities should be subject to reasonable fees. 
As you know, the hunting and fishing community pays a multiplicity of 
license and stamp fees as well as federal excise taxes on equipment. 
These monies are the backbone of wildlife conservation funding. We are 
prepared to pay additional reasonable fees for Refuge uses to help 
secure the system. However, it is imperative that other users--who have 
traditionally paid nothing for the privilege of using and enjoying 
Refuges--step up to the plate to pay their share. More revenue from 
Refuge users is a way to provide more secure funding to augment 
appropriated dollars.
    This combination of actions--different spending priorities that 
minimize the creation of new maintenance obligations, contracting out 
to state wildlife agencies to reduce Refuge operations personnel costs, 
and enhanced user generated revenues--can put the Refuge system on a 
more sound financial footing. Most of these actions are presently 
authorized by existing law. However, Congress should take action--in 
either the authorizing or appropriations arenas--to direct and 
facilitate this suite of solutions. USSA stands ready to work with the 
Subcommittee, and FWS, to achieve these goals and secure the future for 
our incomparable National Wildlife Refuge system.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Horn. And I want to compliment 
all of our witnesses today. I am hearing a lot of very creative 
and I think applicable offerings, in terms of solutions, 
helpful ways that we can stretch our dollars better, and I 
certainly thank you for that.
    I also want to point out that we have been joined by other 
Members today; Mr. Southerland, Mr. Flores, Mr. Duncan, and Mr. 
Runyan. So thank you for joining us today. At this point, we 
will begin questions of the witnesses, and to allow all Members 
to participate and to ensure that we can hear from all 
witnesses today, Members are limited to five minutes for their 
questions.
    However, if Members have additional questions, we can have 
more than one round of questioning. I now recognize myself for 
five minutes. Mr. Horn, the Fish and Wildlife Service received 
$280 million in taxpayer funds in 2009 under the American 
Recovery and Reinvestment Act.
    They used $91 million of that money to build 15 new refuge 
and hatchery visitor centers. Based on your experience as a 
former Assistant Secretary of the Interior and Chairman of the 
Refuge Centennial Commission, was that a good expenditure of 
taxpayer money?
    Mr. Horn. Well, Mr. Chairman, in my humble opinion, let me 
put it a simple way. When the best advice that you can give a 
person in a whole is to stop digging, and I believe that when 
facing a maintenance backlog of the magnitude that flicks the 
system at present, to go out and begin to take dollars to 
construct more and more hard facilities that frankly increase 
your maintenance obligations, it is probably not a good 
expenditure.
    It would strike me that it would have been a better thing, 
and it still would have gotten the job and work effort out of 
it were to have spent some of those dollars on dealing with 
your present backlog problem, rather than creating new 
maintenance obligations that just simply add to that backlog.
    Dr. Fleming. So you are saying that why buy more yard if 
you don't have a lawnmower for the one that you have?
    Mr. Horn. Yes, just as I said, if you are in a maintenance 
backlog situation, why would you put in new capital investments 
that simply increase your maintenance obligations when you 
can't take care of what you have?
    Dr. Fleming. And I think that is a characteristic of the 
stimulus bill in many ways. We actually created, and in many 
different parts, not the least of which is health care, where 
we actually now have committed ourselves to even bigger 
obligations and liabilities down the road, and this is one good 
example of that.
    Mr. Kurth, considering this additional deluge of funds from 
the so-called stimulus, first of all, how much of this money 
was spent on reducing the operations backlog?
    Mr. Kurth. The money was spent on a number of different 
things. We talked about the new facilities that we constructed. 
I would point out that a number of those facilities were 
replacing very expensive rental property not located on 
refuges, and where visitors did not have access to the refuge 
staff. That was one of our criteria.
    We also replaced two facilities that were in need, and that 
had been damaged by storms, or had cracking foundations. All of 
the facilities that were built were replacing existing 
facilities that were energy insufficient.
    We don't look at these facilities as having added to the 
backlog. They have eliminated backlog in many places by 
eliminating facilities.
    Dr. Fleming. Well, I am glad that you said that. How much 
was deferred to the maintenance backlog?
    Mr. Kurth. I am going to have to get the exact figure, but 
a significant percentage of the Recovery Act funding were 
applied directly to deferred maintenance projects, and another 
significant chunk of the money went to habitat projects.
    So we built some new efficient facilities that replaced 
existing ones, and I will find the figure for you in a moment, 
but close to $100 million of deferred maintenance, and we also 
did a wide variety of habitat problems.
    I might note, too, that $34 million went to work on our 
National Fish Hatchery System. So part of the criteria was also 
that we were looking for projects that were ready to go to put 
people to work.
    So there were considerations about putting our citizens to 
work here that factored in where we chose to select these 
projects so that they could be up and running.
    Dr. Fleming. Thank you. I apologize for interrupting, but I 
want to get another question in.
    Mr. Kurth. Sure.
    Dr. Fleming. In the past five years the size of the Refuge 
System has grown from about 96 million acres to 148.8 million 
acres. That is about a 55 percent increase. Because of this the 
operations and maintenance backlog has increased from $440 
million in 1996 to the current rate of 3.3 billion; and billion 
with a B.
    This is a 650 percent increase. Could you explain to me why 
this isn't viewed as totally irresponsible management by the 
Service?
    Mr. Kurth. In the $3.3 billion figure, there are two 
components. One is the deferred maintenance backlog in our 
infrastructure, and the second is our operational needs for 
staff and mission-critical projects.
    I think that we have made progress in both arenas. The 1996 
figures were exceptionally low, largely because we were new at 
trying to do systematic condition assessments. We didn't start 
doing industry standard cost estimating and condition 
assessments until about a decade ago.
    An what we found is that the costs were much higher than we 
had estimated in the past. For example, on half of our assets 
that are roads, we used the Federal Highway Administration to 
do the condition assessments of our roads, and they knew a lot 
more about it.
    We found out that we had a lot more deferred maintenance 
backlog on our road system. I think that if we would have asked 
any refuge manager in the field--and I will tell you that our 
facilities are getting better. They are not getting worse.
    There is still a lot of work to do. We still have 
facilities that are in ill-repair, but we are making progress 
because of the investments that we have made. We have a long 
way to go though, Mr. Chairman.
    Dr. Fleming. OK. Well, I hear what you are saying, but the 
numbers though are telling us something a little different. It 
seems like we are getting further and further behind rather 
than catching up. But I thank you for your answers. I now 
recognize the Ranking Member for any questions that he may 
have.
    Mr. Sablan. Thank you, Mr. Chairman. Good afternoon again 
everyone. I am also interested in--and I think we are all on 
the same page--that we need to give the Refuge System the 
attention that they require, but let me start with Mr. Kurth 
for starters.
    Mr. Kurth, can you please give us an update on the 
Service's operations for a monument management plan for the 
Mariana Trench in the Mariana National Monument?
    Mr. Kurth. We put a notice of intent out to repair that 
monument plan, and we asked for comment in advance of that, and 
that comment period closed a couple of weeks ago. We are 
looking at those public comments now, and over the course of 
the next year, we look to work cooperatively, and put a draft 
monument plan out so that the public will once again have the 
opportunity to comment on that as we strive to put a good plan 
in place for the stewardship of the monument.
    Mr. Sablan. Thank you. Again, Mr. Kurth, how do natural 
disasters affect the operations and maintenance backlog? You 
said that this flooding going on right now will also have 
additional costs, and does the Service get compensated for 
damages incurred by natural disasters, such as the Mississippi 
River flooding?
    Mr. Kurth. In the past, and since 2005, our country has 
experienced devastating hurricanes, and many significant 
floods. Our refuges, unfortunately, are located off the coast. 
We have 188 coastal refuges in the system, and many other 
refuges are on river systems.
    So we get hit pretty hard by these events. We estimate that 
the damages to our facilities from those events was about $500 
million. Now, Congress has been responsive in making 
supplemental appropriations, but they have not covered the 
entire damage.
    We still have about $241 million of damage to facilities 
that hasn't been funded, and we are doing the best that we can 
to cope with that.
    Mr. Sablan. So are there ways the Service can leverage 
partnership opportunities as some have been mentioned, and 
volunteer involvements at refuges to address some of the 
staffing and operational shortfalls at many of these places?
    Mr. Kurth. Yes. I think first and foremost as many people 
have mentioned, our close partnership with State Fish and 
Wildlife Agencies is essential for us to deliver conservation 
to the Refuge System.
    And I have worked in nine different States with the 
Service, and we have always had a co-dependency with our State 
Fish and Game colleagues, and we will work extremely closely 
together with them.
    Our volunteer workforce is a tremendous asset. 42,000 
citizens help us out there, but they do take some management, 
and some refuges are maxed out. We do things like provide RV 
pads for people to camp, and once you max those out, you have 
to build more or you are limited.
    Last year, I think you will remember that Congress 
authorized the Volunteer and Community Support Act, which 
called for us to have a National Volunteer Strategy completed 
by the end of this year, and we will be working on that plan 
throughout the course of this year to try to find additional 
innovative ways, and we look forward to working with the 
Committee as we develop and present that plan.
    Mr. Sablan. Well, thank you. Ms. Clark, can you tell us why 
land acquisition and the operations and maintenance budgets are 
equally important in helping the refuges that need attention?
    Ms. Clark. Sure. In some instances, it is the flip side of 
the same coin. Clearly, taking care of what we have is 
critically important, and I don't dispute the challenges 
associated with the backlogs, some caused by fuzzy math of a 
decade ago, and so now the reporting and management of the 
backlog is more transparent and more real.
    But at the same time as we deal with the increasing 
urbanization in this country, it hardly matters what you do for 
wildlife if you don't take care of their habitat. And the 
National Wildlife Refuge System has been set aside as the 
premier land, where wildlife have those anchors for protection, 
and the need to protect habitat where there are willing 
sellers, or where there is opportunity to protect these 
contiguous areas, is extremely important.
    I think that a lot of the priority of land acquisition for 
the Service today is rounding out existing refuge parcels, and 
dealing with in-holdings, and addressing easements that 
ultimately can contribute to reducing the management associated 
with things like fire fighting, or invasive species management.
    But the need to address landscape conservation efforts 
through land acquisition, prioritized in a very transparent 
fashion is very important.
    Mr. Sablan. I would like to continue this questioning, but 
I have run out of time. So, thank you, Mr. Chairman.
    Dr. Fleming. I thank the Gentleman, the Ranking Member. 
Now, I recognize Mr. Flores, the Gentleman From Texas.
    Mr. Flores. Mr. Chairman, I appreciate you holding today's 
important hearing, and I want to thank all of our witnesses for 
appearing today. It is unfortunate that the operations and 
management backlog at the National Wildlife Refuge System has 
exploded from a level of $440 million in 1996, to over $3.3 
billion and 553 refuges today.
    We also recognize that the difficult fiscal situation that 
our country is in today, and so I am pretty puzzled that our 
Administration would only try to make the problem more worse by 
proposing to acquire more land.
    I am hoping that we can find solutions to this problem to 
develop the right balance between operations funding and 
capital funding to put the management of the National Wildlife 
Refuge System on a sustainable funding path.
    And I appreciate some of the ideas that Mr. Horn put out, 
but I want to drill into one of these for just a minute based 
on something that we have actually been doing at Fish and 
Wildlife.
    According to my notes, it appears that since 1970 the 
Service has completed 40 memorandums of understanding with the 
States and municipal entities for the operation of Federal fish 
hatcheries.
    And, Mr. Kurth, I was wondering if you could tell me how 
that has helped to leverage your dollars to go further?
    Mr. Kurth. Are you speaking about National Fish Hatcheries?
    Mr. Flores. Yes.
    Mr. Kurth. Quite frankly, sir, that is not my area of 
expertise, and I am not familiar with the details of those 
things, but it is certainly common throughout the Refuge System 
for us to have memorandums of understanding with State Fish and 
Wildlife Agencies, local governments, to find areas where we 
can cooperate and leverage our resources, and that is a common 
practice in the refuge system, and one that we actively pursue.
    Mr. Flores. OK. So since I have asked you questions that 
are somewhat out of your space, how have those MOUs worked for 
the areas that you do have jurisdiction over?
    Mr. Kurth. There is a wide variety of them. We have master 
memorandum agreements with, I believe, every State in the 
Union. Often times those things can be used as tools to find 
project areas where we can give money to a State to do a 
project if they can do it more effectively, more cost 
effectively than we can.
    We have a couple of agreements with Tribes, where they do 
certain bodies of work on National Wildlife Refuges, and where 
we find that to be mutually beneficial. Frequently with cities 
and counties, we have memorandums of understandings to provide 
refuge law enforcement, where we are understaffed and can't put 
the right number of officers.
    We work with them to help offset some of their costs to 
provide assistance, and pretty much our refuge managers are 
looking for any way they can to get their job done in a cost 
effective way, and partnerships are an essential part of how we 
deliver conservation.
    Mr. Flores. So in general would you rate that those efforts 
as having worked out effectively to help leverage your dollars, 
your taxpayer dollars to go further?
    Mr. Kurth. I think that our partnerships have been 
extremely successful in leveraging dollars, and we have them 
with States, local governments, conservation organizations, 
tribes, and that is an essential part of our business.
    Mr. Flores. Thank you. I yield back my time remaining.
    Dr. Fleming. The Gentleman yields back his time, and next 
is the gentleman from Florida, Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Chairman. I would like to 
thank everyone for testifying today. Mr. Kurth, I wanted to ask 
if--well, I was going to ask you my question, and I just 
misplaced it. Hold on here.
    Will the Fish and Wildlife Service provide this 
Subcommittee with a copy of the Service 2010 Economics Report 
on the Fisheries program?
    Mr. Kurth. We would be happy to. Again, because the 
Fisheries program is different, but with any of our reports, we 
would be happy to share with the Committee.
    Mr. Southerland. Well, very good. We can delve off because 
that is one thing that I would like to have, and that I know 
that this Committee would certainly like to have, and we 
appreciate your answer there.
    One of the things that I would like to delve into, and we 
have kind of been talking along these lines, is that since it 
is unlikely that the Service is going to receive any new huge 
infusion of discretionary funding, what are some creative ideas 
for dealing with the problems, the backlog problems that we 
have talked about here today, or do we just ignore those and 
acquire additional property?
    And that does not seem to be a smart way to go, but what is 
the discussion going on in the Department, or are there 
discussions going on in the Department for creative ideas?
    Mr. Kurth. I think all of us in government are looking for 
creative ways to stretch our dollars. I mentioned our national 
volunteer strategy as something that we are looking at right 
now.
    For our maintenance backlog, we are more and more using 
what we call maintenance action teams, where we will pool our 
maintenance professionals from a number of refuges and send 
them as a team on-site to keep costs down.
    Sometimes they will stay with campers. We are detailing 
refuge officers from one refuge to another to stretch out our 
limited number of officers to help other stations. We have lots 
of agreements with organizations like Ducks Unlimited, where we 
cost share habitat restoration. We work with our Friends 
groups, who often come up with dollars to help us do projects 
that welcome and orient visitors to refuges.
    We are open to anybodies ideas on how to do more. We 
recognize the tight fiscal times that we are in, and that 
conservation has to be something that we do together with 
everybody who shares an interest in our Nation's wildlife 
heritage.
    Mr. Southerland. I would like to bring your attention to 
one particular issue. The Palmyra, which is one line of islands 
in Micronesia. It is about a thousand miles south of Honolulu, 
and obviously you are familiar with this.
    The American people purchased these islands in the last 
decade, and they have a rat problem. Now, these are islands 
that no one--I mean, obviously this is clearly a refuge. No one 
goes there. It is a thousand miles south of Honolulu, and the 
American people are spending $2.7 million right now for rat 
eradication.
    I mean, I am looking at a 653-page report right here on how 
we should go about killing these rats. You know, this is 
difficult for me, and I am going to just take a real deep 
breath. It is Friday, and fighting this beast is exhausting.
    But I have to tell you why wouldn't we load up a bunch of 
cats and just take them down there and unleash them? I mean, 
really, $2.7 million? I have one minute, but I am eager to hear 
this explanation.
    Mr. Kurth. When we protected Palmyra National Wildlife 
Refuge, we protected probably the best, most pristine coal reef 
ecosystem in the world, and that was a significant objective.
    The island itself being infested with rats has--rats have a 
decimating effect on nesting birds. Wildlife refuges require 
wildlife management, and we can go in one time and eradicate 
those rats on that island. That is a one-time cost. I 
understand that it is a lot of money, but we can make that 
place one of the best places for pelagic seabird nesting in the 
world.
    But wildlife in this day and age takes management, and I 
understand that this is an expensive project. We just did this 
two years ago in Alaska on a place called Rat Island in the 
Aleutians, where we eradicated the largest rat eradication, and 
already there are thousands and thousands of birds returning to 
nests on an island where they have been decimated by rats.
    So we are in the wildlife management business, and we 
respect your oversight on how much these things cost, but we 
can make that place a premier bird nesting area, and that is 
the business that we are in, sir.
    Dr. Fleming. OK. The Gentleman's time has expired. Next is 
the gentleman from South Carolina, Mr. Duncan, for five 
minutes.
    Mr. Duncan. Thank you, Mr. Chairman. I don't have a 653-
page report to talk about, and I really don't have a question 
for you guys other than I want to simply thank Mr. Horn for 
some of the comments that you made in your written statement, 
because like you, I am just dumbfounded that the Administration 
has spent good, hard earned American dollars that are paid by 
the taxpayers on land acquisition when we can't maintain what 
we have now.
    And I am a hunter, and so I have taken advantage of being 
able to hunt on some of the wildlife refuges where hunting is 
permissible, and up against a lot of them, whether it is down 
at Mahannah, or there in Santee in South Carolina.
    I also understand quite honestly the contribution that 
hunters and fishermen make to conservation in this country. As 
an auctioneer in my previous life, I raised millions of dollars 
for conservation efforts, whether for Ducks Unlimited, the 
National Wild Turkey Federation, or even the Congressional 
Sportsmen's Foundation here on The Hill, that promotes these 
activities, and the CCA.
    I mean, I can go on and on about the hunters and fishermen 
that are out there investing their dollars into conservation 
organizations that are doing the right thing, and putting up 
wood dug boxes, and restoring the national wild turkey, the 
wild turkey in this nation, which at one time a distinguished 
gentleman named Franklin wanted to make the National Bird.
    So, I am amazed that we can continue throwing money not 
away, because I don't believe that we are throwing it away to 
invest in land, but at a time when you can't maintain what you 
have got, and you continue to dig the hole deeper and deeper, 
and having to maintain that, you are going backwards.
    So we have to stop somewhere, Mr. Chairman. We have to stop 
purchasing this land and start taking care of what we have got, 
and so I just wanted to point out that, Mr. Horn, you made some 
great comments in there.
    I am looking for one in particular, and I can't find it. So 
what I would like to do, Mr. Chairman, as I yield the balance 
of my time back to the Gentleman from Florida, because I don't 
think that he was finished with his cat comment. Do you need 
the time, sir? I will be glad to yield.
    Dr. Fleming. Yes, we are all dying to hear more from Mr. 
Southerland. So you have the remainder of the time.
    Mr. Southerland. Well, let me say this. That is an over-
simplistic idea, but that is how the American people right 
now--I mean, now we look. I know that it is a lot more complex 
than that. It has got to be. You generated a 653-page report, 
and there has got to be some complexity in there.
    But I guess I am struggling right now at trying to justify 
some of the requests that we are getting, and spending some of 
the money that we are spending when the American people--and I 
can appreciate your job, and there is a place, and it is 
needed.
    I am an avid outdoorsman. I grew up in the woods, and I 
believe in proper management, but you are not properly 
managing. You have more than you can manage, and I think and I 
believe that you have to prove faithful in the little things 
before you get more.
    And we are being asked to give you more. How is that a 
responsible ask, and like in the islands that I made reference 
to as far as the rats? I mean, how do you justify that with the 
American people?
    Mr. Kurth. I think that we are in the same situation you 
are with lots of conflicting needs.
    Mr. Southerland. I am sorry?
    Mr. Kurth. I said, I think that we are in the same position 
that you are in. We have lots of conflicting needs, and what we 
both struggle to do is to identify the most important 
priorities and strike the right balance.
    And I think that that is where we have to go into looking 
at the land acquisition equation in a little bit more depth. 
Some of these lands are expensive to operate. Others are next 
to cost free. And I think what we need to do is to be very 
thoughtful and discern where we can make the strategic 
investments in land protection so that wildlife can be 
conserved in this country, and our citizens can enjoy it.
    Mr. Southerland. Let me ask you one question, because I 
know that I am running out of time. Do we have too much land 
that we can manage?
    Mr. Kurth. We have management that goes undone, but we 
still are providing the finest wildlife habitat in the world.
    Mr. Southerland. That is fine, and you are doing that, but 
do we have too much land to manage?
    Mr. Kurth. We do not have too much land to manage, but we 
have projects that aren't getting done because we don't have 
the resources to do everything.
    Mr. Southerland. I would say this. That before you buy 
property and you spend $9-1/2 million to acquire property, it 
is not unrealistic that these kinds of problems that are going 
to cost the American taxpayer a lot more money, those are 
vetted out, and just maybe there might be some property that we 
want to pass on.
    Mr. Kurth. Sir, I think you are exactly right, and that is 
where our budget justifications each year for each project 
request, we do include in our budget justification what the 
operational costs are, and those are there for everyone to 
consider when they look at what the appropriate land 
acquisition funding should be.
    Mr. Southerland. Thank you.
    Dr. Fleming. The gentleman from South Carolina yields his 
time back. Next is Mr. Runyan, the gentleman from New Jersey.
    Mr. Runyan. Thank you, Mr. Chairman, and I thank all of you 
for being here and for your testimony. Mr. Kurth, I understand 
that the Service's own report states that the fisheries mission 
generates about $3.6 billion in economic output, and supports 
about 68,000, and generates nearly $300 million in Federal, 
State, and local tax revenues. Is that correct?
    Mr. Kurth. I did not hear the first part. Which report are 
you referring to, sir?
    Mr. Runyan. The Fish and Wildlife Services own report 
states that.
    Mr. Kurth. On fishing?
    Mr. Runyan. Yes.
    Mr. Kurth. Again, because my responsibilities aren't on the 
fishery side, I am less familiar with that report, but I am 
sure that you are quoting it accurately.
    Mr. Runyan. OK. And being in the Agency, if that is true, 
and we are talking jobs, and we are talking economic output, 
and we are talking tax revenue, why in the world would the 
Administration propose to cut fisheries by $12 million instead 
of creating new jobs? It is mind-boggling to me.
    Mr. Kurth. Again, we have difficult choices to make in our 
budget. I think what we are looking for in some of the 
reductions in the fisheries account, and again I would like to 
be able to provide you with a supplemental answer for the 
record, because I am not the fisheries program person.
    But some of our fish hatcheries were mitigations for water 
development projects, and what the Service believes is that we 
can get the costs from those mitigation operations from the 
Corps of Engineers or whoever did the water project, and that 
should not come out of our conservation dollars.
    And that if they are mitigation hatcheries, the cost of 
mitigation shouldn't be falling on the surface's core 
conservation program. So we are looking to find ways to 
leverage our fisheries' dollars by sharing the costs with other 
responsible parties.
    Mr. Runyan. Again, I know that when Dr. Gould was here 
several months back, I asked the same question, and something 
that is proven as hatcheries, and being able to put this money 
back into the system, is land acquisition that important, 
especially in a time like now when we have something that is 
proven that can generate revenue?
    Mr. Kurth. Well, our National Wildlife Refuges have been 
proven to generate revenue, and we generate over $1.7 billion 
of economic activity because of the recreational uses of 
refuges, and it creates many thousands of jobs.
    I think that I would like to give you fisheries questions 
for the record, because I don't want to outrun my level of 
expertise.
    Mr. Runyan. I appreciate that, because again, I think that 
a lot of us agree that we are in over our head, and we really 
have to look at common sense ways to get out of this, and I 
think that the fisheries are one of them. With that, Mr. 
Chairman, I yield back.
    Mr. Duncan [presiding]. All right. We are going to enter 
into a second round of questioning, and I appreciate the 
panelists being here for a little longer. The Chairman had to 
step out to another meeting, and so I will reserve myself five 
minutes.
    And the first question that I have is just a simple Yes or 
No, and I am not advocating being necessarily for increasing 
this, but if the Congress was to increase the price of a 
Federal Duck Stamp would you support allocating a $10 increase 
to refuge operations and maintenance? And I would just ask each 
one of you that?
    Mr. Kurth. We have requested an increase in the Duck Stamp 
in our budget, but it was for land acquisition for the 
Migratory Bird Commission to allocate. So I don't think that I 
am in a position to take any other position than that.
    Mr. Duncan. All right. How about the NRA and the 
Sportsmen's groups?
    Ms. Recce. When the subject of raising the Duck Stamp price 
has come up, the NRA has taken a neutral position on it, and so 
we would have to get back. Aside from just raising the stamp, 
the price of the stamp, but its use for operation and 
maintenance, that I would have to get back to you on.
    Mr. Duncan. Have you all polled your members on that at all 
about an increase in Duck Stamp fees?
    Ms. Recce. No, not directly polled. No.
    Mr. Horn. Mr. Chairman, I would say that I think that the 
issue of the Duck Stamp level and the earmarking of some of 
those monies for O&M needs to be looked at in the broader 
context of what I addressed in my statement, which is under the 
Emergency Wetlands Act of 1986, when passed over here, the 
Senate side insisted that there be an 80-20 split on those 
dollars going to land acquisition.
    And I think that the revisiting of that statutory 80-20 
split ought to be part of an examination of what to do with the 
allocation of enhanced Duck Stamp revenues as well. I think to 
take the Duck Stamp out by itself without looking at that 
current 80-20 under the entrance and user fees would be a non-
starter.
    But I think that as a comprehensive relook, it makes damn 
good sense.
    Mr. Duncan. Well, from my personal history being a 
sportsman that purchased Duck Stamps, are generally 
conservation, and I mentioned that earlier, and they are 
generally OK with paying a user fee, a slight increase if they 
know that it is going to help the resource.
    And if they know that there are going to be more 
opportunities, more access to Federal land, more opportunities 
to spend days in the field, extra days, time, access to land, 
all of those.
    But when it is used to maybe wrongly or in ways that they 
don't support, then they would not support an increase. So it 
is an issue that we may or may not get to, but that is 
something that does interest me.
    And just another quick question. There are currently 10 
National Fish Hatcheries, and that are classified as Hatchery 
Management, and State operated facilities. Is there anyone on 
the panel who believes that these hatcheries are not being 
effectively managed by the States?
    [No response.]
    Mr. Duncan. So I take that to mean that you all think the 
States are effectively managing that? So I appreciate that. 
That is the last question I am going to have, and I will turn 
next to the gentleman from the Commonwealth of Northern 
Mariana.
    Mr. Sablan. Thank you. Thank you, Mr. Chairman. Before I 
ask my next question, Mr. Kurth, I would say that those rats 
are not indigenous to our islands, and I know that we didn't 
bring them there and they didn't bring their own canoes, and so 
can we find out who brought those rats there, and who is 
responsible and get them off?
    [Laughter.]
    Mr. Sablan. Oh, the United States Navy. So the government 
has to pay to get those rats off those islands, and once you 
are done, bring them up to the volcanoes that we have there. 
But thank you.
    Again, Mr. Kurth, can you please tell us how--and give me 
some examples of how acquiring land within the boundary of a 
refuge can actually be a win-win situation for taxpayers and 
wildlife, and by reducing operational costs, and creating 
better connected wildlife habitat?
    Mr. Kurth. Sure. Let me give you an example that I was 
looking at just the other day in the Colusa Refuge in the 
Sacramento Valley in California, one of the finest waterfowl 
areas, and waterfowl hunting areas in the country.
    We recently bought an in-holding right in the middle of 
that National Wildlife Refuge, and what it did is that it got 
rid of a lot of boundary that we had to fence, and it let us 
manage the water facilities there.
    There they have managed impoundments, and we did not have 
the ability to step the water down from the northern most units 
to the southern most one, because we didn't control the land in 
between, and it greatly complicated our management.
    The landowner wanted to sell, and we have a price that was 
agreeable to him, and we got the tract, and now we have a much 
more effective way to manage water at a reduced cost and 
complication for us.
    And I think we have these examples over and over again. I 
think that it is not hard to imagine how having a tract right 
in the middle of a refuge that is being not managed for 
invasive species has implications for us.
    So we think that there are lots and lots of examples, and 
we would be happy to submit some more for the record if you 
would like. When we have bought holdings on refuges, it has 
been a win-win situation that has reduced our costs.
    Mr. Sablan. I will make this quick because I am running out 
of time. So if you have property, and you own the land, and you 
have a refuge with four sides to a boundary, and you have 
private property there, which also has four sides, and so you 
are now responsible for not four boundaries, but eight, right?
    Mr. Kurth. Correct.
    Mr. Sablan. Because you have to take that private property 
and add it to the refuge. And I understand that the United 
States has robust populations of waterfowl, and that are 
enjoyed by hunters and bird watchers alike. But what role has 
the refuge system actually played in this environmental success 
story, and would it have been possible without land 
acquisition?
    Mr. Kurth. The role of acquiring land at National Wildlife 
Refuges has been pivotal in the recovery of waterfowl 
populations since the Dust Bowl days of the Depression. We 
have, I think, an outstanding program that was used and was 
implemented to meet population goals, and to distribute refuges 
along the various flyways, and we have been at it hard since 
the 1930s.
    We have a tremendous North America waterfowl management 
plan that gives us clear objectives, and because of this 
network of wildlife refuges, we have done a great job working 
in partnerships with others, like our State colleagues, and 
Ducks Unlimited, and our Canadian and Mexican colleagues, of 
having stable waterfowl populations at a level much higher than 
they were when I started my career.
    Mr. Sablan. And, Ms. Clark, do you believe that Mr. Kurth 
or the Service has generally struck the right type of balance 
with all of its obligations relating to the O&M needs of the 
Refuge System?
    Ms. Clark. I do. They have a dual challenge, and certainly 
are taking care of what they have, and assigning priorities to 
kind of transparent management of the system is important, but 
not bypassing opportunities like the one in the Sacramento or 
the California River Valley, is incredibly important to round 
out these refuges.
    So clearly we can always do better, and the Service can 
always do better, but as I mentioned before, I believe that 
these two competing issues are flip-sides of the same coin when 
it comes to conservation.
    Mr. Sablan. I am running out of time, but can you please 
give the Committee what your recommendations are in writing for 
addressing the O&M backlog? And I am going to go back to Mr. 
Kurth. Well, I don't have enough time, and so thank you, Mr. 
Chairman.
    Mr. Duncan. I want to thank the Ranking Member for that, 
and we will next go to the gentleman from Texas, Mr. Flores, 
for five minutes.
    Mr. Flores. Thank you, Mr. Chairman. Mr. Kurth, when you 
look at acquiring new acreage today, let us assume for the 
purposes of my question that the cost is $100 an acre. What is 
the cost for the--and I realize that there is no typical 
property, but on average based on your experience and what the 
agency has today, what is the cost for the next 10 years to 
properly maintain that property?
    Mr. Kurth. That really has more variables to it and I can't 
give you a scientifically credible answer to that. I mean, when 
we added the marine monuments, we added 50 million acres, and 
there is work to be done out there, but we have not really 
added any significant dollars to do that work.
    And you can see where huge areas like that would be much 
less expensive. They are not actively managed in the same way 
that others would. It depends on the condition of the habitat.
    If it is infested with invasive species, or rats, like my 
friend there, then those costs are higher.
    Mr. Flores. What is your best non-scientific answer? I 
mean, I am assuming--and I think you pointed out earlier in 
your testimony, that when you do an acquisition, you do come up 
with an analysis of what the expected maintenance is in the 
future, and also if there is deferred maintenance at the point 
of acquisition, and what that is going to cost. So you have to 
have some feel for this.
    Mr. Kurth. Well, every single thing that we do throughout 
the Refuge System, we spend less than four bucks an acre on an 
annual basis.
    Mr. Flores. On maintenance?
    Mr. Kurth. On everything, in all of our operations, and in 
all of our law enforcement, and in all of our planning, and in 
all of our facilities that we maintain maintenance, we manage 
every acre in the Refuge System for less an four bucks an acre.
    Mr. Flores. Today?
    Mr. Kurth. Today.
    Mr. Flores. OK. But we are $3.3 billion behind, and so what 
would it take per acre to get up to where--well, let us say 
that we spent the $3.3 billion first today, and everything was 
in an excellent position that the $3.3 billion would get you to 
position, what would it be going for? What would the burn rate 
be going forward?
    I am trying to put it in the terms that I would do if I 
were getting ready to build a chain of hotels. I would want to 
know what my ongoing maintenance is, and to keep them fresh, 
and to keep them properly equipped, and to keep them 
maintained? What could I expect?
    Mr. Kurth. You know, I don't think I can give you that 
figure off of the top of my head. I am also sitting here 
recognizing that the President asked for the money that he 
thinks he needs, and I am not in a position to ask for more 
money than that.
    But if we had all of the facilities in a perfectly 
maintained level, and no maintenance was past due or deferred, 
it would require more money than we have now to maintain that.
    Mr. Flores. So more than the $4 an acre that it takes 
today?
    Mr. Kurth. More than our maintenance budget, which is 
around $140 million a year. That level of maintenance funding 
is not adequate to maintain the $24 billion of infrastructure 
that we currently have.
    Generally, the industry standards are about one to three 
percent of the capital value of your assets to be put into 
maintenance, and depending on the type of assets that you have. 
Obviously, some things like complex buildings are more 
expensive than fence lines and levees.
    Mr. Flores. Well, I think that it is something that the 
taxpayers want to know before we commit new capital, new 
precious taxpayer capital for new projects, and I think it is 
important to know what is the ongoing annuity that we are 
requesting from the taxpayers to keep those properties 
maintained in a good manner.
    Mr. Kurth. That is a fair question, sir, and I would be 
happy to give you an answer for the record, and where I cannot 
be flippant with figures. We have professionals that can give 
you more detailed scenarios on what that is.
    Mr. Flores. I appreciate that. I would yield to anybody 
else that wants to expand on that line of questioning. I yield 
back to the Chairman.
    Mr. Duncan. Thank you. The Chair will next recognize the 
gentleman from Florida, Mr. Southerland, for five minutes.
    Mr. Southerland. Thank you, Mr. Chairman. Mr. Forster, 
first of all, thank you for coming from Georgia. In working 
with the States, is there opportunities that we should be 
really seeking to allow the States to have more--I know that 
you have your State properties, and your State obligations.
    Well, over there, they are under water. I mean, we are 
worrying about rats in the South Pacific. So I am wondering, 
and what I am trying to figure out is, is there a way--and I am 
trying to be serious here, but is there a way that the States--
and obviously if your citizens have the most to benefit from a 
well managed program on Federal refuges, is there any synergies 
there that aren't being taken advantage of that maybe I am not 
familiar with, or that could be taken advantage of because it 
is your neck of the woods?
    Mr. Forster. A great question, and I would say from the 
State's perspective, we are feeling the pain as well. Just in 
Georgia, we have experienced about a 42 percent overall budget 
cut in the last four years, and what we are trying to do as 
much as anything is manage expectations.
    We cannot continue to do the same things that we have 
always done in light of that. So it has forced us really to 
rethink all the partnerships that we are involved in, and it is 
not a discreet process. It is more of a dynamic process that we 
engage in continuously.
    We currently have such a planned meeting with my partner, 
Nick Wiley, in Florida, who by the way was raised well in 
Georgia, and then migrated to Florida later, and for the 
Service to look at this, I don't think it is a one size fits 
all that we can just shift this entire responsibility to the 
States, but there are opportunities.
    And some of those are small, but cumulatively, I think that 
if we quantified them, we would find that they are significant, 
substantial, and that they are I think broadly applied in all 
kinds of creative mechanisms across the United States.
    And we have some of the most creative folks in our field. 
They can stretch a penny and make copper wire. So we are forced 
to do more of that, but it really comes down to priorities 
leveraging, and yes, they are some new opportunities.
    But I think more than anything, we are going to have to 
manage the expectations about what is reality. We are not going 
to be able to keep up with the backlog, and so we are going to 
have to make some tough decisions.
    But with respect to acquisitions, too, even in our State, a 
completely hands-off acquisition approach is problematic for a 
number of reasons. We have already talked about efficiencies 
gained by in-holdings. There are some real jewels out there 
that are too important for your State objectives to not think 
long term.
    We acquired a 10,000-acre piece of property in our State, 
which is not a very pro acquisition State, at least in the 
recent months, but we required about $28 million of State funds 
in light of the budget problem that we are facing, and because 
it is an opportunity, it is looked at through the lens of 
priorities, and it mounts up.
    I think that we have a much lesser focus. We are not going 
to be increasing broad scale acquisition projects, but 
certainly under some scrutiny, it still makes sense to purchase 
some lands in that kind of environment.
    Mr. Southerland. Well, obviously as someone who does 
appreciate the outdoors, it seems to me that there should be 
some--and you are already working on these. I mean, the 
partnerships between the NRA and your members, and members of 
Ducks Unlimited that I am also a member of. I mean, clearly, we 
do want an environment that we can enjoy.
    I think that the taxpayers and those that pay the fees, and 
pay the stamp prices, I think that there are people that would 
even pay more if they thought they could have more access. I 
think that one of the things that the American people find 
very, very disturbing is that you are going to get my money, 
and you are going to buy property that we can't manage, and you 
are going to continue to ask for increased budgets, and I can't 
take my children hunting or fishing on those properties.
    And so I find that that right there is where the American 
people feel that they are getting the shaft. So there are 
obviously some things that I think could be done with these 
organizations, because you represent the people that know how 
to treat the land right, and they know how to manage game 
right.
    But I know that is a different challenge. I really would 
like to see the States have more say, because it is your baby, 
and have more--well, at least in a working relationship, 
because you all are overwhelmed, and United States Wildlife is 
overwhelmed. So, thank you. I yield back.
    Mr. Duncan. Any other Members have questions for the 
witnesses?
    [No response.]
    Mr. Duncan. If not, I would like to thank all of our 
witnesses for their valuable testimony and contributions here 
today. I must say that the rat study has me intrigued. Members 
of the Subcommittee may have additional questions for the 
witnesses, and we would ask you to respond to these in writing 
as they are submitted.
    The hearing record will be open for 10 days to receive 
these responses. I believe this hearing is the beginning of the 
process, and it is my hope that the CARE Group will use the 
next six months to nine months to develop a new vision for 
significantly reducing the operations and maintenance backlog 
within the Refuge System.
    I would also like to thank the Fish and Wildlife Service 
for all your assistance, and in providing essential background 
data for this hearing. Finally, I want to thank the Members, 
the Ranking Member, and the staff, for their contributions to 
this hearing. If there is no further business, without 
objection----
    Mr. Southerland. Mr. Chairman?
    Mr. Duncan. Yes, sir?
    Mr. Southerland. If anyone wanted to borrow this 653-page 
document, that you would be sure to give this back to me on 
Monday morning, I will let you use it for the weekend.
    Mr. Duncan. If there is no further business, without 
objection, the Subcommittee stands adjourned.
    [Whereupon, at 4:11 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
